<html>
<title> - REVIEW OF RESOURCES, PRIORITIES, AND PROGRAMS IN THE FY 2016 STATE DEPARTMENT BUDGET REQUEST</title>
<body><pre>[Senate Hearing 114-705]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 114-705

                 REVIEW OF RESOURCES, PRIORITIES, AND 
                     PROGRAMS IN THE FY 2016 STATE 
                       DEPARTMENT BUDGET REQUEST

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON WESTERN HEMISPHERE
                TRANSNATIONAL CRIME, CIVILIAN SECURITY,
                      DEMOCRACY, HUMAN RIGHTS, AND
                         GLOBAL WOMEN'S ISSUES

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 5, 2015

                               __________

       Printed for the use of the Committee on Foreign Relations
       
       
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


      Available via the World Wide Web: http://www.gpo.gov/fdsys/




                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-835 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1176617e517264626579747d613f727e7c3f">[email&#160;protected]</a> 




                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts

               Lester Munson III, Staff Director        
           Jodi B. Herman, Democratic Staff Director        
              Jamil Jaffer, Majority Chief Counsel        
            Margaret Taylor, Minority Chief Counsel        
                    John Dutton, Chief Clerk        

                         ------------          

               SUBCOMMITTEE ON WESTERN HEMISPHERE        
            TRANSNATIONAL CRIME, CIVILIAN SECURITY,        
                  DEMOCRACY, HUMAN RIGHTS, AND        
                     GLOBAL WOMEN'S ISSUES        

                 MARCO RUBIO, Florida, Chairman        

JEFF FLAKE, Arizona                  BARBARA BOXER, California
CORY GARDNER, Colorado               TOM UDALL, New Mexico
DAVID PERDUE, Georgia                TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts

                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hon. Marco Rubio, U.S. Senator From Florida......................     1
Hon. Barbara Boxer, U.S. Senator From California.................     3
Hon. Catherine Russell, Ambassador-at-Large, Global Women's 
  Issues, U.S. Department of State, Washington, DC...............     4
    Prepared statement...........................................     6
John D. Feeley, Principal Deputy Assistant Secretary, Bureau of 
  Western Hemisphere Affairs, U.S. Department of State, 
  Washington, DC.................................................     9
    Prepared statement...........................................    11
Virginia Bennett, Principal Deputy Assistant Secretary, Bureau of 

  Democracy, Human Rights, and Labor, U.S. Department of State, 
  Washington, DC.................................................    13
    Prepared statement...........................................    15

              Additional Material Submitted for the Record

Responses of John D. Feeley to questions submitted for the record 
  by Senator Bob Corker..........................................    48
Responses of John D. Feeley to questions submitted for the record 
  by Senator Tim Kaine...........................................    50

                                 (iii)

  

 
  REVIEW OF RESOURCES, PRIORITIES, AND PROGRAMS IN THE FY 2016 STATE 
                       DEPARTMENT BUDGET REQUEST

                              ----------                              


                          TUESDAY, MAY 5, 2015

        U.S. Senate, Subcommittee on Western Hemisphere, 
            Transnational Crime, Civilian Security, 
            Democracy, Human Rights, and Global Women's 
            Issues, Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:35 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Marco Rubio ( 
chairman of the subcommittee) presiding.
    Present: Senators Rubio, Flake, Gardner, Perdue, Boxer, 
Kaine, Markey, and Menendez.

            OPENING STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. All right, the committee will come to order.
    Today's hearing is to review the resources, priorities, and 
programs in fiscal year 2016 at the State Department budget 
request, focused on--here in our work in the Western 
Hemisphere, as well as transnational crime, civilian security, 
democracy, human rights, and global women's issues.
    Our witnesses today from the administration are the 
Honorable Catherine Russell, the Ambassador-At-Large for Global 
Women's Issues; Dr. John Feeley, the Principal Deputy Assistant 
Secretary of State, the Bureau for Western Hemisphere Affairs; 
and Miss Virginia Bennett, the Principal Deputy Assistant 
Secretary of State, Bureau of Democracy, Human Rights, and 
Labor.
    And the hearing is going to focus on a review of resources, 
priorities, and programs in fiscal year 2016 budget request in 
the Bureau of Democracy, Human Rights, and Labor, Bureau of 
Western Hemisphere Affairs, and the Office of Global Women's 
Issues. I want to thank all of you for being a part of this 
today.
    These are important issues for the Department of State and 
for America's role in the world. Just as ensuring that our 
military is adequately funded to deter our enemies, the 
international affairs budget, of which the State Department 
budget is just one component, is an essential element of our 
national security. The programs we will review today help us 
advance U.S. national security interests in key regions and 
help us ensure that our foreign policy reflects our values.
    I want to take the opportunity to briefly review some of 
the challenges facing us in the Western Hemisphere, as well as 
across the globe.
    In Central America, the countries of El Salvador, 
Guatemala, and Honduras, which are collectively known as the 
``Northern Triangle countries,'' have been mired in economic 
stagnation, rocked by violent crime brought on by the 
proliferation of narcotraffickers, and hobbled by entrenched 
corruption that inhibits economic growth and safety. I am 
cautiously optimistic about the desire of these countries to 
move themselves forward and the attention that the 
administration is now giving to this particular region. While 
there cannot be a blank check and no accountability, Central 
American governments must look within and stamp out corruption 
to restore public confidence in public institutions.
    In Colombia, I remain supportive of the Government of 
Colombia and the Colombian people's right to seek what is in 
their best interest with regards to the ongoing peace talks 
with the FARC. However, the FARC's most recent deadly attack 
violated a cease-fire that had been in place since December, 
and resulted in the death of 10 soldiers. This is not the first 
time that the FARC has violated a cease-fire agreement, and the 
attack highlighted how deadly FARC continues to be. Our 
assistance to Colombia has been instrumental to the success in 
bringing the FARC to the negotiating table. The United States 
and Colombia must make sure that the FARC knows that they have 
been defeated on the battlefield.
    In Haiti, the suspension of the October 26th elections last 
year was very startling, and the announcement of the President 
that he would rule by decree was even more disturbing. 
History--Haiti, unfortunately, has a history of turbulent 
elections, and the recent suppression of political protesters 
cannot continue. We are hopeful that the upcoming August 
election will go forward as planned and that a new 
democratically elected government will be installed that will 
be responsive to the people of Haiti.
    In Cuba, despite all the efforts by the Obama 
administration to fast-track and reestablish relations with 
that government, the Castro dictatorship has used this 
opportunity to ridicule and attack American interests. The 
Cuban Government has made no concessions, no attempts to open a 
society that has been in darkness for 55 years, a darkness, 
make no mistake, that has been inflicted by the Castro brothers 
due to their ineffective and failed ideology. In fact, since 
December 17, the regime has increased its repression and 
beatings of dissidents, and has shown every intent of making 
U.S. overtures a one-sided deal. In particular, the consistent 
attacks on the Ladies of White show this brutal regime's true 
nature.
    In Venezuela, we continue to be concerned with the 
increasing authoritarian rule of Nicolas Maduro over Venezuela. 
The recent announced nationalization of privately owned 
commercial companies through the use of his decree powers is an 
affront to a free society. He also continues to lash out at the 
United States as the cause of Venezuela's problems, never 
acknowledging that he is the one who has imposed restrictions 
on currency, travel, and trade. The Venezuelan people deserve 
better.
    In Argentina, we continue to mourn the death of Argentine 
Special Prosecutor Alberto Nisman, a courageous man who 
relentlessly pursued those who were responsible for the bombing 
of the Argentine Israelite Mutual Association in Buenos Aires 
on July 18, 1994, that killed 85 people and wounded more than 
300. I am concerned over the slow pace of the investigation 
into his death. And, with that in mind, I introduced a 
resolution today regarding his courageous work and life, and a 
call for a swift and transparent investigation into his tragic 
death.
    Nicaragua continues to reestablish its close ties with 
Russia, rekindling memories of Soviet presence in Central 
America during the 1980s. New military cooperation agreements 
between Vladimir Putin and Daniel Ortega serves as a further 
expansion of Russian reach into the hemisphere.
    Mexico, which we join today in celebrating its army's 
defeat of the French Army on Cinco de Mayo, continues to be a 
strong partner of the United States, both economically through 
trade and security. I continue, of course, to be concerned 
about the violence that proliferates across the country, driven 
by drug cartels that seek to terrorize communities they operate 
in. I am particularly concerned about the massacre of 43 
students in the city of Iquala.
    On democracy and human rights, we are seeing a 
deterioration of democracy and human rights across the globe. 
In particular, freedom of press and freedom of religion is 
being challenged in every corner of the globe. In 2015, Freedom 
House Freedom of the World Report identified that global press 
freedom declined in 2014 to its lowest point in more than 10 
years. A 2013 Pew Research study found that Christians were 
being harassed either by government or social groups in 102 of 
198 countries included in the study. There are also serious 
questions about whether the U.S. Government is structured 
adequately to make human rights and democracy a priority of 
foreign policy.
    On women and girls--face numerous challenges across the 
globe, from China's one-child policy, which places a preference 
on boys over girls, to Saudi Arabia, where the state of women's 
rights is so abysmal that they are not even allowed to drive. 
Gender-based violence cuts across ethnicity, race, class, 
religion, educational level, and international borders. An 
estimated one in three women worldwide has been beaten, coerced 
into sex, or experienced some other form of abuse in their 
lifetime.
    While these lists of challenges seem daunting, the U.S. 
Government is dedicated to improving the status of democracy, 
human rights, and women's rights. Today, we are exploring how 
we can best dedicate our resources to improve ongoing U.S. 
efforts.
    With that, I recognize the ranking member, Senator Boxer.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thank you very much, Mr. Chairman. I want to 
thank you for holding this hearing, and I want to extend a warm 
welcome to our distinguished witnesses.
    Today's hearing is part of a series of subcommittee 
hearings to examine in more detail the State Department's 
strategic and budgetary priorities for fiscal year 2016. These 
hearings will help inform the committee's efforts to craft a 
State Department authorization bill, which is a top priority 
for our new chairman.
    Our subcommittee has jurisdiction over a range of critical 
matters relating to U.S. foreign policy and national security, 
including U.S. relations with countries of the Western 
Hemisphere, as well as a global responsibility for democracy, 
human rights, and women's issues.
    I just want to call out for praise Secretary Kerry. When I 
went to then-Chairman Kerry with this notion that we add this 
very important part to our subcommittee--human rights, 
democracy, and women's issues--he said yes. And Republicans 
support it, as well. I am very grateful that it stays with this 
subcommittee.
    The State Department's budget request seeks to implement 
key policies and strategies in each of these areas. I strongly 
support the administration's historic $1 billion request for a 
U.S. Strategy for Engagement in Central America. This funding 
will support a government-wide approach to promote regional 
prosperity and economic opportunity, address high levels of 
violence and insecurity, and strengthen democratic 
institutions. I also support the administration's efforts to 
deepen U.S. engagement in the region, including its decision to 
chart a new path forward in United States-Cuban relations. And 
I know we are sharply divided on that in this committee, but 
that is healthy disagreement.
    In addition, I appreciate the administration's strong 
commitment to promoting women's rights, protecting women's 
security, and ensuring their full and meaningful participation 
in all areas of public life.
    The budget request also includes funding for programs that 
combat gender-based violence, that our chairman alluded to, and 
for continued implementation of the U.S. Strategy to Prevent 
and Respond to Gender-based Violence Globally. It is also 
critical that the United States continues to lead the world in 
advancing democracy and human rights worldwide. Today, sadly, 
we continue to see widespread human rights violations and 
threats to fundamental freedoms in countries from China to 
Russia to Uganda to Venezuela. So, I support funding for 
programs that support human rights defenders and civil society 
organizations, promote religious freedom, and strengthen 
accountability and the rule of law.
    It seems to me, if we are going to wrap our arms around the 
distress in the world, I think this subcommittee is a good 
place to start, because of our broad jurisdiction over these 
issues.
    And I thank you, Mr. Chairman, for this opportunity.
    Senator Rubio. Thank you, Senator.
    And now we are going to begin with Ambassador Russell.
    Welcome to the committee. Thank you for being here.

   STATEMENT OF HON. CATHERINE RUSSELL, AMBASSADOR-AT-LARGE, 
GLOBAL WOMEN'S ISSUES, U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Russell. Thank you very much. Good afternoon, 
Mr. Chairman, Ranking Member Boxer, and distinguished members 
of the committee. Thank you very much for inviting me to 
testify today.
    We, at the Department of State, believe that advancing the 
status of women and girls worldwide is not only the right thing 
to do, it is the smart thing to do. Study after study 
demonstrates that countries are more stable, peaceful, and 
prosperous when women are healthy, educated, and able to fully 
participate in their economies and their societies. As the 
Ambassador at Large for Global Women's Issues, it is my job to 
develop and help implement policies and initiatives that 
promote gender equality and advance the status of girls and 
women around the world. My office is focused on both policy and 
diplomacy efforts. We implement a handful of targeted programs 
to strategically advance our objectives. We share best 
practices for promoting gender issues within the State 
Department, and we coordinate with USAID and other U.S. 
Government agencies, as well as other governments, 
international institutions, and NGOs.
    I would like to begin today by providing you with an 
overview of my office's three priority areas, and I will then 
outline how we use our resources to support these objectives.
    Our first priority is to prevent and respond to gender-
based violence, both in conflict and in peacetime. As you said, 
Chairman Rubio, more than one in three women around the world 
faces sexual or physical violence in her lifetime. That is why 
I make sure that addressing gender-based violence is the--on 
the agenda every trip that I take. For example, I have met with 
survivors of acid attacks in Pakistan. I have met with the 
Government of Bangladesh to encourage them to uphold 18 as the 
legal age of marriage for girls. I have met with Afghan 
President Ghani to discuss the recent mob murder of a 27-year-
old woman named Farkhunda. And we continue to push the Afghan 
government to fully implement the elimination on the Violence 
Against Women Act.
    Our second priority is to advance women's full 
participation in all aspects of society. In the places where 
decisions are made, women are vastly underrepresented. From 
politics to peace negotiations, women often do not have a seat 
at the table. We are working very hard to change that. We also 
work to expand women's economic participation. One of the most 
effective ways to empower women is to facilitate greater 
economic independence. Women's economic opportunities have 
ripple effects for their families, communities, and countries. 
Women spend the majority of their earnings on food, schooling, 
and immunizations that help secure their children's futures. 
And when more women work, when the gap between women and men in 
the workforce narrows, economies benefit, as well. Research has 
shown that the narrowing gap between male and female employment 
accounted for a quarter of Europe's annual GDP growth over the 
past two decades.
    Our final priority is addressing the needs of adolescent 
girls. In too many parts of the world, adolescence is the most 
precarious time for girls. Many are at risk of early and forced 
marriage. In fact, one in three girls in the developing world 
is married by the time she is 18 years old. Millions of girls 
live in conflict settings that raise the risks of gender-based 
violence and further disrupt already perilous situations. And 
far too many girls have the education--far too few girls have 
the education they need to participate fully in the economy. 
Girls' attendance in formal schooling during adolescence is 
also correlated with later marriage, later childbearing, lower 
rates of HIV/AIDS, fewer hours of domestic and labor work, and 
greater gender equality. That is why, through the Let Girls 
Learn Initiative, a government-wide effort recently launched by 
the President and First Lady, we are working to make the case 
that every girl deserves a chance to complete her education, 
especially secondary education.
    These are the priorities we are focused on. I would like to 
talk very briefly about how we use our resources and programs 
to advance gender equality.
    As I mentioned, my role is a strategic combination of 
policy and diplomacy. The majority of programmatic activities 
related to gender are carried out by State and USAID embassies 
and missions around the world, as well as some of our bureaus 
here in Washington. My office helps advance these issues 
through our own targeted programming. In many instances, we use 
our resources to fill gaps and test innovative strategic ways 
to address challenges related to women and girls.
    I am committed to ensuring that our funds are spent on 
programs that have real impact and that can serve as models for 
other work. That is why we have implemented procedures to carry 
out rigorous monitoring and evaluation of the projects we fund.
    One thing we have learned is that it is difficult to see 
change without comprehensively addressing the many challenges 
that women and girls face. For example, it is one thing to 
provide services to survivors of domestic violence, but to 
truly reduce rates of gender-based violence, we must also focus 
on prevention and empowerment. And for us to succeed in 
achieving full gender equality, we need everyone--diplomats, 
government practitioners, civil society men and women--to play 
a role.
    The same concept applies to U.S. foreign policy. Each of 
the global challenges we face include and involve women. We 
cannot effectively counter violent extremist groups without 
engaging women. We cannot create stable and prosperous 
societies without including women. We cannot build stronger 
economies without making sure that girls go to school. That is 
why, across every bureau and every embassy, we need to make 
every effort to advance the status and address the needs of 
women and girls.
    Your leadership and support are critical to the success of 
our efforts. And I thank you very much for having me here today 
and for supporting our work.
    [The prepared statement of Ambassador Russell follows:]

               Prepared Statement of Catherine M. Russell

                              introduction
    Good afternoon, and thank you, Chairman Rubio, Ranking Member 
Boxer, and distinguished members of the committee for inviting me to 
testify today on the resources, priorities, and programs of the Global 
Women's Issues Office.
    My principal responsibility as the Ambassador-at-Large for Global 
Women's Issues is to develop and help implement policies and 
initiatives related to promoting gender equality and advancing the 
status of women and girls internationally. We do this by disseminating 
best practices for promoting gender issues within the Department of 
State and also through coordination with USAID and other U.S. 
Government agencies, as well as other governments, international 
institutions, and nongovernmental organizations (NGOs). We are an 
office focused on both policy and diplomacy efforts, and we also 
implement a handful of targeted programs to strategically advance our 
objectives.
    The Department believes that advancing the status of women and 
girls worldwide is not only the right thing to do, but the smart thing 
to do. Study after study demonstrates that countries are more stable, 
peaceful, and prosperous when women are healthy, educated, and given 
the opportunity to fully participate in their economies and societies. 
In other words, we believe women and girls are a good investment.
    I would like to begin today by providing you with an overview of my 
office's three priority areas, and I will then outline how my office 
uses our resources to support these objectives.
Priorities
    Our first priority is preventing and responding to gender-based 
violence, including early and forced marriage, both in conflict and in 
peacetime. This work includes addressing cases that capture 
international headlines, like the rape and murder of young girls in 
India, Boko Haram's brutal kidnapping of teenage girls who had gathered 
to take their college entrance exams, and the kidnapping of hundreds of 
Yezidi women and girls by ISIL. But it also includes the challenging 
work of changing social norms and deeply ingrained attitudes that lead 
to more than one in three women around the world experiencing sexual or 
physical violence in her lifetime. In too many places, far too many 
people--including women--think domestic violence is justifiable for a 
variety of incomprehensible reasons, all rooted in the low status of 
women and girls.
    That is why I make sure that addressing gender-based violence is on 
the agenda of nearly every trip I take. These efforts range from 
meeting with survivors of acid attacks in Pakistan, to encouraging the 
Government of Bangladesh to uphold 18 as the legal age of marriage for 
all girls, to encouraging the Afghan Government to fully implement the 
Elimination of Violence Against Women Act (EVAW). On a trip to 
Guatemala, I visited a USAID-supported 24-hour specialized court for 
cases related to violence against women, exploitation, sexual violence 
and human trafficking, which takes an innovative and integrated 
approach combining legal, medical, and psychological services for 
survivors of gender-based violence. Recently, I met with the President 
of Afghanistan, Mohammad Ashraf Ghani, and discussed the brutal mob 
murder of a 27-year-old woman named Farkhunda and the Afghan 
Government's efforts to bring the perpetrators to justice.
    My office also works to make sure that our embassies and bureaus 
around the world incorporate best practices for preventing gender-based 
violence into their strategic planning, diplomatic efforts, and 
programming and to ensure continued implementation of the U.S. Strategy 
to Prevent and Respond to Gender-based Violence Globally.
    Our second priority is advancing women's full participation in all 
aspects of society, including in the political sphere. Today, only 22 
percent of all of the world's parliamentarians are women, and there are 
21 women either serving as head of state or head of government. Only 18 
percent of all government ministers are women, with the majority 
serving in the fields of education and health. Between 1992 and 2011, 
women have represented fewer than 4 percent of signatories, 2 percent 
of chief mediators, and 9 percent of negotiators to major peace 
processes. These are the places where decisions are made. Decisions 
that affect women's lives as they do men's. Yet too often women don't 
have the seats at the table they both need and deserve.
    We also work to expand women's economic participation. One of the 
most effective ways to empower women is to facilitate greater economic 
independence. Women who take home dependable pay from decent jobs are 
better equipped to provide for themselves and more likely to stand up 
for their rights. Being a wage earner can also positively influence a 
woman's sense of personal empowerment; she may have the means or 
wherewithal to leave an abusive situation. Becoming a breadwinner may 
provide a greater voice for her in household decisionmaking such as the 
education of her daughter. In addition, investing in women produces a 
multiplier effect: women spend the majority of their earnings on food, 
schooling, and immunizations that help secure their children's futures.
    Furthermore, ensuring women's participation in the workforce helps 
boost economies. The Organization for Economic Cooperation and 
Development (OECD) has found that the narrowing gap between male and 
female employment has accounted for a quarter of Europe's annual GDP 
growth over the past two decades and that closing gender gaps in the 
labor market in the Middle East and North Africa could increase per 
capita GDP in that region by more than 25 percent.
    For example, the Women's Entrepreneurship in the Americas 
Initiative, or WEAmericas, Initiative, which we implement with the 
Bureau of Western Hemisphere Affairs, leverages public-private 
partnerships to support women entrepreneurs.
    Through the Equal Futures Partnership--a U.S. led initiative--we 
are working diplomatically with 26 countries and the European Union to 
decrease barriers to women's economic and political participation. We 
are encouraging every partner country to make and fulfill commitments 
on these issues and linking more developed countries with others that 
still face significant challenges to the full inclusion of women. As an 
example of how Equal Futures countries work together, Italy recently 
shared with Mexico a successful anti-gender-based violence campaign. 
Studies show that gender-based violence is and remains a significant 
barrier to women's full economic participation.
    We are also working to increase the role of women in peace and 
security efforts. This is part of our strategic commitment to the U.S. 
National Action Plan on Women, Peace, and Security, which affirms that 
ensuring the participation of women in issues such as security, 
stabilization, justice, and reconciliation is critical to lasting peace 
and to U.S. national security.
    For instance, I was recently in Baghdad and met Iraqi women from a 
range of different backgrounds as well as U.N. and minority group 
representatives to discuss the urgent security and humanitarian 
challenges, including the needs of traumatized women and girls such as 
those who have escaped or otherwise returned from ISIL captivity. The 
Department is actively seeking ways to further assist these and other 
survivors of sexual and gender-based violence, building on existing 
interventions by the U.N. and other international organizations.
    In Sierra Leone, a program funded by my office intended to 
strengthen women's local leadership proved effective in responding to 
the Ebola outbreak. The group used its convening authority to engage in 
public outreach with health care providers and local populations on the 
Ebola response, helping to ensure that the unique needs of women and 
girls were addressed.
    Our final priority is addressing the needs of adolescent girls. 
Unfortunately, in too many parts of the world, adolescence is the most 
precarious time for girls. Far too many people believe that a few years 
of education is enough for a girl and that once she reaches 
adolescence, it is time for her to get married or increase her domestic 
responsibilities.
    A quarter of a billion girls live in poverty. In sub-Saharan 
Africa, only 1 in 10 girls graduate from high school. One in three 
girls in the developing world is married by the time she is 18, and one 
in nine is married by the age of 15. Every year, millions of girls 
undergo female genital mutilation/cutting (FGM/C). There are about 
380,000 new HIV infections among young women aged 15-24 every year. 
Millions more live in conflict settings that raise the risks of gender-
based violence and further disrupt already perilous situations. And far 
too few girls have the education they need to participate fully in the 
economies of their countries.
    Through the Let Girls Learn Initiative, a government-wide effort 
recently launched by President Obama and the First Lady, we are working 
to make the case that every girl deserves a chance to complete her 
education, especially secondary education. One World Bank study found 
that every year of secondary school education is correlated with an 18 
percent increase in a girl's future earning power. Girls' attendance in 
formal school during adolescence is correlated with later marriage, 
later childbearing, lower rates of HIV/AIDS and other reproductive 
health problems, fewer hours of domestic and/or labor market work, and 
greater gender equality.
Resources/Programmatic Activities
    As I mentioned, my role is a strategic combination of policy and 
diplomacy, and I serve to advance the Secretary's Policy Guidance on 
Promoting Gender Equality to achieve our national security and foreign 
policy objectives. The majority of programmatic activities related to 
gender are carried out by State and USAID embassies and missions around 
the world, and some of our bureaus here in Washington. In addition, my 
office helps advance these issues through our own targeted programming. 
In many instances, we use our resources to fill gaps and test 
innovative, strategic ways to address challenges related to women and 
girls.
    One such initiative is the Secretary's Full Participation Fund, 
which provides resources to embassies and bureaus to implement 
innovative ideas that integrate gender equality into every aspect of 
their work.
    Last July, my office was proud to announce our largest Full 
Participation grant ever--$1.5 million--to help support our Embassy in 
Guinea in an effort to eliminate FGM/C, which U.N. data shows affects 
96 percent of the female population in Guinea. This horrific practice 
has zero health benefits--and can even lead to death. Through 
partnerships with the Government of Guinea, Guinea's First Lady, 
UNICEF, and 26 local civic and human rights organizations, our Embassy 
in Guinea has established nationwide educational and media campaigns 
that engage policymakers, health professionals, FGM/C practitioners, 
religious leaders, and the general public in an effort to abandon FGM/
C. Our Embassy has helped to start a national dialogue about this 
practice and has implemented programs that will protect up to 65,000 
girls and women.
    We also have our Global Women, Peace, and Security Grants. In 
coordination with the Bureaus of African Affairs and International 
Narcotics and Law Enforcement Affairs, we are funding a program in the 
Democratic Republic of the Congo to help build local capacity to 
collect the forensic evidence necessary to prosecute rape crimes. The 
program supports training for local legal, law enforcement, and health 
professionals in the proper forensic documentation of sexual violence 
cases, chain of custody procedure, and use of court-admissible evidence 
to prosecute legal cases against alleged perpetrators of sexual 
violence.
    I am committed to ensuring that our funds are spent on programs 
that have real impact and that can serve as models for other work. That 
is why we have implemented procedures to carry out rigorous monitoring 
and evaluation of the projects we fund, including working with 
organizations at the outset of each award to establish detailed plans 
to achieve and demonstrate results, as well as through site visits and 
tracking of projects through quarterly reporting.
    One thing we have learned is that it is difficult to see change 
without comprehensively addressing the many challenges that women and 
girls face. For example, it is one thing to provide services to 
survivors of domestic violence. But to really reduce rates of gender-
based violence, we must also work on prevention and ensuring that women 
and girls have opportunities for education and economic independence.
    We also know that everyone is going to have to play a role if we 
want to effectively address the challenges women face. We know we can't 
do this alone--promoting gender equality is everyone's job who works in 
diplomacy and development.
    We cannot effectively counter extremist groups without engaging 
women. We cannot create stable and prosperous societies without 
including women. We cannot build stronger economies without making sure 
that girls can go to school. Across every bureau and embassy, we need 
to make sure that we are making every effort to advance the status and 
address the needs of women and girls.
    Thank you for your time and I look forward to your questions.

    Senator Rubio. Thank you very much.
    Secretary Feeley, welcome to the committee.

         STATEMENT OF JOHN D. FEELEY, PRINCIPAL DEPUTY 
            ASSISTANT SECRETARY, BUREAU OF WESTERN 
         HEMISPHERE AFFAIRS, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Feeley. Mr. Chairman, Ranking Member Boxer, 
distinguished members of the subcommittee, thank you very much 
for the opportunity to testify here today.
    Mr. Chairman, the Western Hemisphere is a top priority for 
the United States, because important national interests are at 
stake. I am pleased to report that almost every available 
metric supports the view that the United States remains an 
influential actor and a vital partner in this region. The Obama 
administration's policy aims to forge equal partnerships with 
the countries of the Americas to advance our shared values and 
our common interests. And that is essential for the American 
people. It links families, it creates jobs, it promotes our 
common democratic values, and it increasingly enables us to 
work together on important regional and global issues, such as 
climate change, combating transnational criminal organizations, 
and promoting a prosperity agenda that begins here at home.
    Our budget request reflects the high level of importance 
that this administration gives to the Western Hemisphere. The 
request, as you know, is $1.99 billion, which represents a 
34.7-percent increase from fiscal year 2014. Just over half of 
the total request supports the U.S. strategic engagement for 
Central America, a new whole-of-government approach to enhance 
prosperity, governance, and security in Central America.
    Last summer's spike in the migration of unaccompanied 
children and women was a clear signal that serious long-
standing challenges in Central America remain and, in some 
instances, frankly, are worsening. The administration is 
committed to working with Congress to develop a new approach to 
Central America.
    Our assistance request for Central America includes new 
investments, as I said, for prosperity in governance consistent 
with our strategy while maintaining and strengthening our 
current focus on security. These funds are necessary to 
adequately address the complex web of factors that motivate 
many Central Americans--as I said, including women and 
unaccompanied children--to embark on a dangerous and 
undocumented migration to the United States.
    As the Vice President and President have stressed, we must 
cooperate with our Northern Triangle partners to create the 
opportunities that will keep Central Americans at home and 
contributing to the creation of a safe, secure, prosperous, and 
middle-class region. While the level of support represents a 
significant increase from previous years, we believe that the 
political will does exist in the region to merit this renewed 
investment in Central America's security and prosperity.
    We realize this is an important task, and we do not take it 
lightly. We, in the executive branch, must move quickly to 
demonstrate results and hold ourselves accountable. That means 
that we will continue to consult closely with all of you and 
your staff on this committee, and your colleagues elsewhere in 
the House and in the Senate. We will evaluate our programs. We 
will craft the most assistant--the most effective assistance 
package.
    Beyond Central America, we must maintain investments in 
priority programs that are working. This past summer, Mexico 
was a key partner in the effort to stem the flow of migration 
to the United States. And it has a strong record of capturing 
important drug traffickers. Therefore, our request to continue 
the support for the Merida Initiative is of paramount interest 
to us. We must continue to support Mexico's efforts to support 
and strengthen the rule of law, combat corruption, build 
resilient communities, and protect human rights.
    In Colombia, as you mentioned, Mr. Chairman, a historic 
peace process poses the best chance yet of bringing an end to 
Latin America's longest running conflict. Our request supports 
Colombia in that effort to strengthen their law enforcement and 
counternarcotics activities, to promote human rights 
effectively, to look at women in conflict in the conflictive 
zones, to work on economic development, and to work on social 
inclusion. All of this will be crucial for a lasting and just 
peace.
    In the Caribbean, our request includes $241 million for 
Haiti and $53 million for the Caribbean Basin Security 
Initiative, both of which are focused on important national and 
administration priorities. As you may know, Peru is now the 
world's largest producer of cocaine, and the government will 
need our help to change this trajectory.
    Our request maintains important support for freedom of the 
press, human rights, and democracy efforts in the hemisphere, 
including in Cuba, Venezuela, Ecuador, and Nicaragua. And we 
will also continue to support a revitalized and a reinvigorated 
Organization of American States. We are well aware that there 
are many challenges, but we are even more convinced that there 
are many opportunities for the American people.
    I look forward to this engagement. I look forward to this 
session. And I thank you again for the opportunity to appear 
before you.
    [The prepared statement of Mr. Feeley follows:]

                  Prepared Statement of John D. Feeley

    Mr. Chairman, Ranking Member Boxer, and members of the 
subcommittee, thank you for the opportunity to testify on the FY 2016 
request for U.S. assistance for the Western Hemisphere.
    Mr. Chairman, the Western Hemisphere is a top priority for the 
United States because important national interests are at stake. I am 
pleased to report that almost every available metric--including public 
opinion polls, levels of trade and investment, cultural and family 
ties, security cooperation, and shared democratic values--supports the 
view that the United States remains an influential actor and vital 
partner in the region. And this positive relationship with our 
neighbors is essential for the American people. It creates jobs. It 
links families. It promotes our common democratic values. The Obama 
administration's policy aims to forge equal partnerships with the 
countries of the Americas to advance these shared values and our common 
interests. Today, we are not only working closely with our partners to 
address regional and hemispheric challenges, but we are increasingly 
working together on important global issues, such as climate change, 
combating transnational criminal organizations, and promoting a 
prosperity agenda that begins at home.
    Let me be very specific. In the Western Hemisphere, our top 
priorities are jobs and prosperity, education and innovation, energy 
cooperation, and promoting democratic values. We are also focused on 
improving citizen security with more comprehensive policies that 
advance prosperity and innovation, deepening the successful North 
America relationship, and supporting Colombia's peace process.
    Our FY 2016 budget request reflects the high level of importance 
that this administration gives to the Western Hemisphere. The request 
is $1.99 billion, which is a 34.7-percent increase from FY 2014. Just 
over half the total request supports the U.S. Strategy for Engagement 
in Central America, a new, whole of government approach to enhance 
prosperity, governance, and security in Central America. Last summer's 
spike in the migration of unaccompanied children was a clear signal 
that serious and long-standing challenges in Central America remain 
and, in some instances, are worsening. In order to change this dynamic, 
we must adequately address the underlying factors driving migration or 
be prepared for what is likely to be an ongoing cyclical phenomenon--
with significant impact and cost to the United States.
    Our $1 billion assistance request for Central America includes new 
investments for prosperity and governance consistent with our strategy, 
while maintaining and strengthening our current focus on security, 
including the investments we have made through the Central America 
Regional Security Initiative (CARSI).These funds are necessary to 
adequately address the complex web of causal factors that drive many 
Central Americans to seek out better opportunities in the United 
States, despite the obvious dangers of making this journey as an 
undocumented migrant. As the President and Vice President have 
emphasized, we must cooperate with our Northern Triangle partners to 
create the opportunities that will keep Central Americans at home, 
where they can contribute to the creation of a safe, secure, 
prosperous, and middle class region. While this level of support 
represents a significant increase from previous years, we believe the 
cost of investing now in Central America's security and prosperity 
pales in comparison to the cost of addressing migration challenges here 
in the United States.
    We are cognizant of the significance of this task and do not make 
this request lightly. We in the executive branch must move quickly to 
demonstrate results and hold ourselves accountable. That means 
consulting closely with the members of this committee and your 
colleagues in the Senate and in the House, rigorously evaluating our 
programs, and crafting the most effective assistance package.
    Most significantly, we believe the essential condition for success 
is in sight: political will in the region. Vice President Biden 
traveled to Guatemala to meet with the Presidents of El Salvador, 
Guatemala, and Honduras in early March. It was only the latest of his, 
the President's, and Secretary Kerry's engagement with these leaders. 
During months of intensive work with these three Presidents of the 
Northern Triangle of Central America, it has been clear that the notion 
of ``shared responsibility'' is much more than a bumper sticker. I was 
pleased to join the Vice President during his most recent trip to the 
region earlier this spring, where the leaders agreed to a joint 
statement including a host of public commitments--with timelines--for 
continued progress. Together we committed to actions in Central America 
in order to promote a better business environment for investors and 
small businessowners, to strengthen police and judicial systems, to 
increase government openness and transparency, to improve revenue 
collection and make streets safer. And we did so publicly, inviting 
scrutiny and accountability.
    Our prosperity agenda for Central America fosters the integration 
of a regional market of 43 million people and the reduction of legal 
impediments that hamper competition and growth and only benefit small 
groups of closely held, entrenched economic forces. Six million young 
people will seek to enter the labor force in the next decade. 
Encouraging an environment that enables investment and growth will 
encourage talented people to stay at home, and create jobs and local 
businesses to participate in a bigger market.
    Our strategy's governance agenda recognizes that economic growth 
and security are only sustainable when democratic institutions of 
government are transparent, accountable, and actually deliver services 
to all citizens--and when independent civil society and the media can 
play their rightful oversight roles. Citizens and investors will trust 
institutions once those institutions establish a pattern of 
transparency, accountability, and effectiveness. Thus, the prosperity 
and governance components of our Strategy are essential for the success 
of our security investments. At the same time, security remains a core 
priority. Our $1 billion request for Central America includes $286.5 
million for CARSI to scale up proven community-based security models 
and advance police reform.
    Beyond Central America, we must maintain investments in priority 
programs that are working.This past summer, Mexico was a key partner in 
the effort to stem the flow of migration to the United States. And 
nearly every week it captures important drug traffickers. But its 
serious security challenges have persisted, as we saw with the tragic 
disappearance of 43 students in Iguala. Therefore, our $119 million 
request in continued Merida Initiative support emphasizes technical 
assistance, support to additional Mexican states in line with Mexico's 
priorities, and assists Mexico's southern border strategy. It advances 
Mexico's efforts to strengthen the rule of law, combat corruption, 
build resilient communities, and protect human rights--all important 
priorities for the American people--especially those living in border 
states.
    In Colombia, all eyes are on whether the peace process can bring an 
end to Latin America's longest running conflict. But we can't take our 
eye off the ball, so our request includes $288.7 million to support 
Colombia's efforts to secure the rule of law and support sustainable 
development, which will be crucial for a lasting and just peace. Our 
assistance to Colombia strengthens law enforcement, counternarcotics 
and rule of law, promotes human rights and humanitarian assistance, and 
expands support for economic development and social inclusion. The 
request also reflects Colombia's ability to provide for its own needs. 
However, our assistance will need to remain flexible as Colombia 
pursues negotiations to conclude its decades-long conflict. We 
appreciate Congress' long-standing bipartisan support for our 
partnership with Colombia and the Colombian people and we will 
absolutely continue to consult with Congress on this important 
bilateral policy.
    In the Caribbean, our request includes $241.6 million for Haiti and 
$53.5 million for the Caribbean Basin Security Initiative (CBSI). Our 
request for Haiti focuses on investments in infrastructure and energy; 
food and economic security, health, and other basic services; 
governance, rule of law, and security. CBSI assistance seeks to 
stabilize and reduce rates of crime and violence, which threaten both 
U.S. and Caribbean security. The request for CBSI emphasizes regional 
law enforcement information-sharing and cooperation, justice sector 
reform, and initiatives that address the root causes of crime and 
insecurity in targeted communities, with a focus on youth.
    Peru is now the world's largest producer of cocaine, and the 
government will need our help to change that trajectory. Our request 
for Peru is $95.9 million, which includes support for traditional 
counternarcotics activities. Additionally, these funds would support 
alternative development programs. Our model of coordinated 
counternarcotics and alternative development has reduced coca 
cultivation in Peru's San Martin region by 70 percent over the past 
decade, while simultaneously halving poverty, from 67 percent in 2001 
to 30 percent in 2013. With USAID support, communities in San Martin 
now cultivate over 50,000 hectares of coffee, cacao, and other 
alternative crops for export markets in the United States and Europe. 
These proven models of success must go hand in hand with our law 
enforcement cooperation to help our committed Peruvian partners beat 
back the organized crime networks that grow, make, and ship illicit 
narcotics. This assistance will continue our strong cooperation with 
the Humala administration, which has demonstrated a clear commitment to 
partnership with the United States.
    The request maintains important support for freedom of the press, 
human rights, and democracy efforts in the hemisphere, including in 
Cuba, Venezuela, Ecuador, and Nicaragua. And we will also continue to 
support a revitalized and strengthened Organization of American States, 
under the leadership of Secretary General-elect Almagro, so that the 
organization is able to proactively engage on issues of democratic 
governance and human rights in the region. Ensuring the independence of 
the Inter American Human Rights System remains a key part of these 
efforts at the OAS. The United States has a long history of supporting 
human rights and civil society. Our request continues this approach.
    The United States remains firmly committed to engaging our regional 
partners on a positive agenda for the hemisphere. Our consistent vision 
is of a prosperous, democratic and stable region, which requires us to 
focus on areas such as Central America that are most vulnerable. The 
U.S. assistance that supports our policy makes a direct difference in 
the lives of citizens throughout the hemisphere and benefits the 
national interests of the United States.
    I thank you for your consideration and look forward to your 
questions.

    Senator Rubio. Thank you for being here today.
    Secretary Bennett.

   STATEMENT OF VIRGINIA BENNETT, PRINCIPAL DEPUTY ASSISTANT 
 SECRETARY, BUREAU OF DEMOCRACY, HUMAN RIGHTS, AND LABOR, U.S. 
                     DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ms. Bennett. Chairman Rubio, Ranking Member Boxer, members 
of the committee, thank you for the opportunity to discuss the 
work we do in the Bureau of Democracy, Human Rights, and Labor 
to support freedom in closed societies and advance human rights 
and democracy around the globe. Your commitment to these vital 
issues is well known and much appreciated.
    Assistant Secretary Malinowski regrets he cannot be here 
today. He is in Vietnam, leading our bilateral human rights 
dialogue. I am personally delighted, if I might say, about his 
travel, because it means my first opportunity to offer 
testimony. And it is a true privilege to participate in the 
dialogue that is the very foundation of U.S. governance. And I 
thank you for that opportunity.
    Globally, space for civil society is shrinking. 
Restrictions and far more sinister acts to repress media are on 
the rise. Religious intolerance is captured through brutal 
imagery. And U.S. support for the organizations and individuals 
working to advance democratic freedom, human, and labor rights 
is making a difference in people's lives across the globe. We 
are deeply appreciative that DRL's advocacy work has long 
enjoyed strong bipartisan support from Congress.
    DRL's total budget request is $89 million, sort of dwarfed 
by WHA's. That request includes 60 million for the Human Rights 
and Democracy Fund, or HRDF, and 29 million for Diplomatic and 
Consular Programs, or DNCP. DNCP funds staff salaries, travel, 
and the like, as well as production of our annual human rights 
and international religious freedom reports. DRL also 
implements approximately $70 million of foreign assistance 
funding per year in Economic Support Funds, or ESF. That 
funding is transferred to us from the Department's regional 
bureaus, and so is not included in our own budget request.
    So, what do we do with these precious resources? Ninety 
percent of our work globally is in closed or closing societies 
where gross human rights abuses can occur unchecked and 
activists can be attacked and repressed with impunity. We seek 
to widen political space in struggling or nascent democracies 
and in countries with authoritarian regimes, including those 
where the United States has no diplomatic presence. DRL has 
many years of experience helping brave activists who target 
rights abuses and promote democratic principles in these 
environments.
    Our programs are notified to Congress, and overt, but we do 
take protection of our implementing partners very seriously. I 
would be happy to provide this committee or my colleagues with 
a private briefing at a later date about more details of some 
of what these programs entail.
    But, here let me highlight some examples of what makes our 
programming, in general terms, quite unique.
    First, the agility with which we can respond. Last year, we 
launched a new NGO Consortium for Truth, Reconciliation, and 
Justice. When mass graves were discovered in eastern Ukraine, 
just a couple of weeks after that, we were poised to deploy 
experts to advise the Government of Ukraine and local civil 
society on tracking missing persons, identification of 
individual remains, and preserving forensic information.
    DRL is also innovative. Our Digital Defenders Partnership 
has provided 350 civil society organizations with digital 
security assistance, and approximately 7 million people have 
benefited from software or hardware the Partnership has made 
available.
    We have also used technology solutions to improve physical 
security. In the Democratic Republic of the Congo, for example, 
an SMS-based system now permits villagers to alert U.N. or DRC 
protection forces of impending attack. This system has thwarted 
some three dozen rebel attacks on villages which are home to 
approximately 150,000 people.
    Many of our programs are tailored in their support of those 
who are targeted, whether women, religious and ethnic 
minorities, indigenous populations, or the LGBT community. Our 
Gender-Based Violence Fund just recently assisted 50 Yezidi 
women and girls who had escaped the brutality of ISIL 
captivity.
    We also leverage like-minded support to stretch money. 
Since establishing the Global Equality Fund to advance the 
rights of LGBT persons, we have been joined by 10 other 
governments and 9 private entities. Their contributions have 
grown our $2 million initial investment into $20 million of 
programs in more than 50 countries. And we are proud of that.
    Mr. Chairman, as the National Security Strategy in 2015 
affirms, America is uniquely situated and routinely expected to 
support peaceful, democratic change. DRL stands ready to do our 
part. We must continue to seek the release of activists, 
continue to support civil society, and press governments to 
halt arbitrary detention to uphold freedom of expression. We 
must continue to seize opportunities to make a difference in 
democracies under threat and in countries in transition.
    Thank you again for holding this hearing, Mr. Chairman, and 
I look forward to your questions.
    [The prepared statement of Ms. Bennett follows:]

                 Prepared Statement of Virginia Bennett

    Chairman Rubio, Ranking Member Boxer, distinguished members of the 
committee. Thank you for providing this opportunity for the Bureau of 
Democracy, Human Rights and Labor to discuss our work to advance human 
rights and democracy around the globe. I would like to share with you 
what we plan to accomplish with the foreign assistance funds we've 
requested. DRL enjoys strong bipartisan support from Congress, and we 
are appreciative.
    Assistant Secretary Malinowski regrets that he cannot be here 
today. He is in Asia leading the U.S. Bilateral Human Rights Dialogue 
with the Government of Vietnam.
    U.S. advocacy for democracy, human rights, labor, and international 
religious freedom are critical to our national response to the 
challenges we face. To continue this important work, DRL's FY16 budget 
request for Diplomatic and Consular Programs is $29,432,000 for 
operations. Our operational budget represents the lifeblood of DRL's 
policy initiatives on human rights. It covers staff, foreign travel, 
our human rights report, our international religious freedom report and 
engagement. We combine diplomacy with foreign assistance programs 
around the world that support democracy and human rights promotion. I'd 
like to focus my remarks today on our foreign assistance request.
    DRL has requested $60 million for the Human Rights and Democracy 
Fund (HRDF). Approximately $45 million would be obligated in accordance 
with the following core priorities:

  <bullet> Promoting international religious freedom;
  <bullet> Protecting labor rights;
  <bullet> Promoting human rights in China;
  <bullet> Providing emergency assistance to activists;
  <bullet> Ensuring Internet freedom;
  <bullet> Combating Anti-Semitism;
  <bullet> Supporting the rights of persons with disabilities;
  <bullet> Preventing atrocities and transitional justice;
  <bullet> Emergency response for populations at risk.

    DRL will use the remaining $15 million to fund other programs 
across the globe. We provide a global figure in our Congressional 
Budget Request to allow us to respond to human rights crises or 
emergencies that arise during the fiscal year. For example, last year, 
we adjusted our operational plan to support unanticipated free and fair 
elections in Ukraine. We are currently seeking to assist the new 
government with post-conflict accountability and reconciliation. We 
strive to be rapid and responsive, and most of our programs go from 
inception to implementation in 6 to 8 months.
    Our HRDF request represents a critical component of our programming 
budget, but it does not reflect our entire programming budget. We also 
receive transfers from regional Economic Support Funds. DRL manages 350 
grants a year on average, and implements approximately $150 million 
annually in foreign assistance. In general, ESF transfers are tied to 
specific countries and projects HRDF allows us to pivot in response to 
changing conditions. We have created and deployed rapid response 
assistance to religious freedom, human rights, and labor activists or 
organizations suffering repression. And we have developed strategic 
partnerships with other governments and with foundations and corporate 
donors.
    We support the use of new technologies to assist civil society 
activists and organizations worldwide. We support women; religious and 
ethnic minorities; indigenous populations; and lesbian, gay, bisexual, 
and transgender persons. We seek to widen political space in struggling 
or nascent democracies and authoritarian regimes. We target human 
rights abuses, particularly in countries that systematically repress 
fundamental freedoms. And our rapid response programs allow us to react 
immediately to protect human rights defenders under attack across the 
globe.
    I am confident our programs will accomplish these goals in FY16, as 
they have in past years. For example, in the Democratic Republic of 
Congo, DRL funded an initiative to create an SMS-based early warning 
and response system. This allowed communities in remote areas to alert 
authorities to threats and outbreaks of violence. These communities 
were then able to receive quick, comprehensive emergency assistance.
    Before this program, it was common for 10 to 15 communities to rely 
on one communication point to relay messages to U.N. protection forces. 
This left communities at the mercy of armed groups who could simply 
block roads and prevent them from sounding the alarm. DRL's program 
provided villages with communications tools and provided training to 
civil community observers, civil protection officers, and rural police 
officers on how to use the warning system. Within the first two years, 
the system received 872 reports from remote villages. It thwarted 38 
rebel attacks on villages that are home to approximately 150,000 
people.
    This program's success has demonstrated that training and 
communication technologies can empower communities and responders. They 
reduce response times, and help ensure comprehensive, real-time 
assistance from protection forces, as well as NGOs providing health or 
legal services. The provincial government of North Kivu has now taken 
the lead in managing and expanding these systems.
    Last year, DRL launched the Consortium for Truth, Justice and 
Reconciliation. It comprised nine civil society organizations 
recognized globally for their expertise on transitional justice 
mechanisms. Within 2 weeks of the program's launch, our Embassy in 
Ukraine asked for assistance in responding to the discovery of mass 
graves in the Donbas region of Eastern Ukraine. There, Russian-
supported separatists continue attacks against the Ukrainian 
Government. The Consortium quickly deployed technical experts to advise 
the Government of Ukraine and local civil society organizations on 
establishing processes and procedures to deal with reporting missing 
persons. They establish procedures for exhuming mass graves, 
identifying individuals, and preserving forensic information. In the 
last 6 months, the Consortium has begun longer term programs to 
document ongoing human rights abuses and to promote local 
reconciliation in Iraq and South Sudan.
    I am pleased to highlight the reach and impact our programs have. 
We are even stronger when we partner with others in defense of human 
rights. To that end, DRL has forged strategic partnerships with other 
governments, foundations, and private donors. This maximizes our 
ability to implement programs in support of the Bureau's mandate. In 
many situations, our initial engagement has motivated other U.S. 
agencies or non-U.S. Government donors to provide funding to promote 
human rights and democracy goals.
    For example, we used HRDF to establish a multilateral fund called 
Lifeline, to provide emergency assistance to civil society 
organizations under threat for their efforts to advocate for 
fundamental freedoms. We have since recruited 16 like-minded 
governments and 2 foundations to contribute to a consortium of seven 
international human rights organizations. In FY 2014, Lifeline provided 
emergency assistance to 153 civil society organizations in 68 countries 
and territories. It also supported 61 advocacy initiatives that raised 
domestic, regional, or international awareness of a specific threat or 
restriction on civil society.
    Through a public-private partnership with the Avon Foundation and 
Vital Voices, we established the global Gender-Based Violence Emergency 
Response and Protection Initiative. This provides emergency assistance 
to survivors of extreme forms of gender-based violence. In Iraq, the 
Initiative has supported nearly 50 Yezidi women and girls who have 
escaped ISIL captivity. The Initiative provides fast, short-term 
assistance for the most egregious of GBV cases. These targeted grants 
pay for emergency medical, psychosocial, legal, relocation, shelter, 
and other related expenses as quickly as 72 hours after a request is 
made. Both survivors and those threatened with extreme violence are 
eligible for assistance.
    As citizens turn to digital tools to capture and spread 
information, we have seen authoritarian governments clamp down on 
rights of expression. In response, we used HRDF to form and fund the 
Digital Defenders Partnership with several other governments. Since its 
inception, the Partnership has provided direct emergency support to 55 
organizations and 208 individuals facing digital emergencies, such as a 
denial of service or malware attack. The Partnership has provided 
almost 350 organizations with small grants that have allowed them to 
assess and strengthen the security of their digital systems. Almost 700 
individuals have received digital security trainings as a result of 
Partnership programs. And almost 7 million people have accessed 
hardware or software that improves their digital security.
    DRL used HRDF to establish the Global Equality Fund, a special Gift 
Fund that allows us to receive funds from like-minded states and 
private entities in order to protect and promote the human rights of 
LGBT persons worldwide. Since its launch, we have recruited 10 other 
governments and 9 private entities to join us. Those partnerships have 
allowed us to leverage the $2 million dollars initially invested by DRL 
into $20 million of programs. These are protecting and promoting the 
human rights of LGBT persons in more than 50 countries.
    We also enjoy a unique capacity to fund short-term, high-impact 
programs. In the past year, we pivoted quickly to meet needs identified 
by our embassies across the world. Since our Fundamental Freedoms Fund 
was established in 2011, DRL has provided $19 million to support 76 
projects in every region of the world. Our rapid response programs have 
become an invaluable Department resource. They have involved more than 
85 missions worldwide and provided immediate support to activists and 
organizations in urgent need. In 2014, we expanded the rapid response 
model to include a consortium of NGOs that can provide immediate 
technical assistance on transitional justice issues.
    DRL's core focus remains closed societies. In those places gross 
human rights abuses can occur unchecked and activists can be attacked 
or repressed with impunity. And in such environments, direct U.S. 
Government engagement through bilateral assistance or even embassies 
may not be appropriate or possible. Over 90 percent of our budget goes 
to programs in such closed or closing societies.
    As repressive governments crack down on civil liberties, our 
programs become ever more vital to answering the administration's call 
to assist civil society under threat. We work safely and effectively in 
spaces where others cannot. We adjust our operating procedures and 
apply best practices we've developed over years of implementing 
programs in high-risk environments to do so. We find ways to reach out 
and support civil society activists, by employing methods aimed at 
protecting the identity of our beneficiaries and reducing their risk of 
exposure to oppressive governments. Let me be clear that our programs 
are overt. They are notified to Congress. We acknowledge them publicly. 
Indeed, we would be happy to provide this committee with a detailed 
briefing on our closed society programs. But we work hard not to 
endanger our partners in high-risk environments, and we take that 
responsibility seriously.
    Our support empowers local NGOs and citizens to press for reforms 
and build foundations for more accountable governance. We support those 
promoting freedom of association, freedom of expression, and the right 
to collective bargaining. We support the efforts of human rights 
activists as they work to build democratic institutions, support access 
to justice, create independent media, and document human rights abuses. 
Our programs help advance international religious freedom, labor and 
disability rights, and transitional justice, and they promote the 
rights of marginalized people. We counter religious intolerance, anti-
Semitism, and violent extremism. In the face of increasingly 
sophisticated tactics for disrupting activism online, we promote 
digital security, help activists obtain independent information, and 
support policy and advocacy projects in countries that seek to restrict 
Internet freedom.
    Governments that protect human rights and fundamental freedoms are 
more stable, successful, and secure than those that do not. The United 
States finds stronger partners in governments that reflect and act in 
the broad interests of their own people, rather than the narrow 
interests of the few.
    We must continue to seek the release of activists and to make 
progress on issues of mutual concern, such as disability and labor 
rights. We must continue supporting civil society, and pressing 
governments to halt arbitrary detentions, and uphold freedom of 
expression. We must seize opportunities to make an immediate difference 
in democracies under threat, or countries in transition.
    This is the work of decades, not days. As the 2015 National 
Security Strategy affirms, ``America is uniquely situated--and 
routinely expected--to support peaceful democratic change.'' Careful 
stewardship of the resources allocated to DRL enables us to advance 
U.S. foreign policy priorities in this regard, and we stand ready to do 
our part.
    Mr. Chairman, Ranking Member Boxer, committee members, your 
commitment to human rights is well known, and much appreciated. Thank 
you, again, for holding this hearing. I look forward to answering your 
questions.

    Senator Rubio. Thank you all for being here. We will enter 
the questions now.
    I will begin with Ambassador Russell. Earlier this, I 
introduced the Girls Count Act, with Senator Shaheen, which 
promotes programs that will assist with birth registration of 
both girls and boys. A nationally recognized proof-of-birth 
system is important to determining a child's citizenship, their 
nationality, their place of birth, et cetera. The lack of that 
documentation, of course, can prevent girls and women from 
officially participating and benefiting from formal economic, 
legal, and political sectors in their country.
    I was hoping you could briefly describe to us--well, I 
guess, not briefly; however long it takes--the current barriers 
that girls face around the world in receiving a birth 
certificate, what you are doing--what we do about that, and how 
the Girls Act Count could supplement your current work.
    Ambassador Russell. Great, thank you, Mr. Chairman. And 
thank you very much for introducing that legislation.
    It is interesting, when I travel, I meet so many girls. It 
is an issue that I was not as aware of before I started this 
job as I probably should have been and certainly am now. But, 
one of the consequences of this is that girls--I mean, it is 
just--to the name of your bill, they just are not counted, they 
are not considered in any equations, and it makes it very 
difficult for them to get to school, it makes it difficult for 
them as they get older. Sometimes they do not have any paper 
that supports who they are, what their identifies are, so they 
cannot get loans to start jobs. I met some women who run a 
little taxicab service in India, and they talked about how so 
many of the young--they take very poor women, and they get them 
trained to drive taxicabs. And it is important, because, in 
India, there is a lot of nervousness about--on the part of 
women, about using public transportation, so they have these 
women-only taxicabs. But, how some of these very poor women 
never have any paper to sort of establish who they are, so they 
cannot go to a bank, they cannot get a driver's license. So, it 
is a problem that follows them throughout their lives. And, I 
think, from our perspective, the efforts to change that are 
critically important. And it also goes to the--another issue 
that I know you care about, which is trafficking, which is--
again, it makes them very--much more vulnerable to things like 
that when they do not have any way to establish their identify. 
So, we are definitely supportive of the notion and very anxious 
to work with you on that bill.
    Senator Rubio. On a followup note, in 2011, the 
administration announced its National Action Plan for Women, 
Peace, and Security. How would you assess the implementation of 
this plan? And, in particular, are we assisting with including 
women in these high-level negotiations?
    Ambassador Russell. Well, we are certainly trying. It is a 
priority for us. And it is--I think it is not always easy, as 
you can imagine, because what happens in these conflicts is 
that the people who are negotiating the peace are typically 
combatants, and they are typically not women. And what we do--
USAID does a great deal of this; we are supportive of the 
efforts, as well--we do training for women so that, once we get 
them to these tables, they know how to negotiate, they are more 
effective in these roles. And we have been engaged in this. We 
are happy to see that there are women in the Colombia 
negotiations. We are happy that--we believe--the early reports 
are, in Afghanistan, we have had three women on that, sort of, 
early process negotiation between the Afghans and the Taliban. 
So, we--I think that countries are starting to recognize that 
women have a stake in the future of their country, so they 
should be involved in the discussions about how the country's 
going to move out of conflict. But, I cannot tell you that it 
is an easy battle. It is a constant--it is something that we 
are constantly working on and trying to engage on the 
diplomatic side.
    Senator Rubio. Secretary Bennett, I wanted to talk to you 
about religious freedom. It is not just an American ideal, it 
is a human one, and protecting these freedoms around the world 
should be a top priority of our foreign policy agenda. What 
progress has DRL made in both protecting and advancing 
religious freedom around the world?
    Ms. Bennett. Thank you, Mr. Chairman.
    You know, I think that--I first would like to say that, 
from the perspective of the administration and, I think, all of 
us who are really very privileged to work on these issues, 
religious freedom is a top priority. The threat that religious 
minorities, I think, are currently experiencing is of 
extraordinary proportion, whether it is Christian populations 
in the Middle East, whether it is--or, it--really, whatever 
stripe of religious minority is out there, it is under complete 
pressure and threat.
    As to what progress we are making, in terms of protecting 
individuals, it is hard to measure, very honestly. We have 
certain types of programs. We have, you know, one--Protecting 
Belief Fund, for example, which enables us to provide real 
time, very targeted assistance to individuals who have come 
under attack, to provide protection or exit capacity for them 
to get them and their families to someplace safer. So, that is 
obviously on a very micro level.
    But, I would also like to take a step back and talk just a 
little more on kind of a strategic framework, where our 
Ambassador-At-Large for Religious Freedom, David Saperstein, 
and Assistant Secretary Malinowski have joined forces, I think 
very effectively, to go out and engage with governments--for 
example, on a recent trip to Iraq--about the importance of 
promoting tolerance. And they will continue to do so, I think, 
in a wide number of the global communities with which we are 
engaged.
    Senator Rubio. You would agree that the--obviously, all 
religious intolerance is abhorrent. I want to focus, in 
particular, however, on the plight of ancient Christian 
communities in the Middle East, communities that existed, and 
still do, to some extent, in Syria, in Iraq, in Lebanon, and in 
other parts of the Middle East. Would you agree that they face 
a challenge today unlike anything we have seen in recent 
history, in terms of the violence that they have now been 
exposed to, whether it is the beheadings just recently that we 
saw once again in North Africa, or just the destruction of 
entire villages, churches, and otherwise, the--we have reached 
a crisis point? And is that going to--will that be a priority 
of our foreign policy in that region as we focus on all of the 
atrocities that are occurring, but, in particular--this is an 
aspect I do not hear pointed to enough--is that a priority? 
And, if so, you know, what have we done or what expressions 
have been made over the last few months to include that in our 
conversations as we view those issues in that region?
    Ms. Bennett. Sadly, we do agree that that is a priority. I 
mean, the level of threat that these communities are 
experiencing is remarkably intense. We will continue to engage 
with local communities to try to create, again, as I said, sort 
of the promotion of tolerant space and also with the relevant 
governments in that region to articulate the importance of 
preserving these ancient cultures.
    A flashing light, so I think that means I stop? No. Sorry.
    Senator Rubio. Yes, there is a little leeway there. Keep 
going. That is okay.
    Ms. Bennett. Sorry. I am new to this, as I said.
    Senator Rubio. I understand.
    Ms. Bennett. So, the--but, for our--you know, for our 
purposes, I think that we look at this in a couple of different 
ways, both in terms of longer term and the work of decades, not 
days, in trying to create and foster improved environments in 
the communities, and the importance of tolerance. And then we 
look at it also on a very near-term basis. And that includes 
engaging with--you know, in dialogue with religious leaders in 
all communities about how to address the very real systemic 
threat.
    One of the--you know, one of the unusual experiences I 
think that our Office of International Religious Freedom has 
had over the past 6 to 8 to 9 months has been the very 
effective relationship that we have crafted with our colleagues 
in the interagency, in terms of actually defending communities 
under threat. While this has been less focused on the Christian 
community in particular, and more on the Yezidi community 
because of the nature of some of the threats that we have seen, 
we really do believe that we are making some progress in this 
regard.
    Senator Rubio. Thank you.
    Senator Boxer.
    Senator Boxer. Thank you, Mr. Chairman.
    Ms. Bennett, I wanted to pick up on the Yezidi issue, 
because my understanding is that the Gender-Based Violence 
Emergency Response and Protection Initiative has supported 
nearly 50 Yezidi women and girls who have escaped ISIL. Could 
you define what that support has been?
    Ms. Bennett. In general, what that support has been--well, 
I will take a step back. This is a partnership that we 
established with Vital Voices in the Avon Foundation. The 
nature of the support has been varied with the individual, but 
it is, you know, post-trauma counseling, working within the 
community to find a new place for individuals to reside, to be 
reintegrated into communities. It is to provide to them some 
measure of inclusion in the communities in which they are, and, 
in some cases, actually support to be removed and to relocate 
someplace. So, it actually has been very dependent on the 
particular situation of the individual.
    Senator Boxer. Now, does your current funding level allow 
you to provide assistance to meet the needs of vulnerable women 
survivors of gender-based violence in Iraq and Syria, or is 
your budget limiting your activities to just Yezidies?
    Ms. Bennett. There is always more, I would say, to be done, 
but our--because our funding is so flexible in its nature, the 
way that we fund, in general, is much more on a compressed 
timeline than that sort of longer term, bigger development 
assistance projects. And so, that enables us to be very 
responsive and to shift resources where they are needed, when 
they are needed.
    Senator Boxer. Well, that is good.
    I want to talk to Ambassador Russell. Last month, Senator 
Rubio and I wrote to the Chinese Ambassador to the United 
States, urging the Chinese Government release five women's-
rights advocates who were detained for planning to raise public 
awareness about sexual harassment in conjunction with 
International Women's Day. After spending more than a month in 
detention, the five women were conditionally released. However, 
according to a Reuters story, one of the women was verbally 
attacked during an 8-hour interrogation by the Chinese police 
less than 2 weeks after her release. Can you confirm that? This 
is unacceptable, if true. How can the United States increase 
pressure on China to uphold its domestic and international 
commitments to respect the universal human rights of its 
citizens?
    Ambassador Russell. Thank you, Senator Boxer. And thank you 
very much for that letter, because I did see it, and I think it 
does make a difference.
    The key, from our perspective, is that we--both Ambassador 
Power and Secretary of State--issued strong statements. And I 
think, ultimately, all that attention helped. And so, the 
leadership that you displayed really reinforces that. So, thank 
you for that.
    But, I think the key, going forward, is that we just cannot 
let up on the pressure, and we need to make sure that everybody 
understands that we are continuing to watch the situation, that 
we are aware of what is happening with these women, and that we 
are not letting--you know, taking our eye off the ball on it.
    Senator Boxer. Well, I hope--you can do a followup. It 
would help. I am sure that the chairman and I could write 
another letter. But, having someone be released, only to be 
interrogated for 8 hours--I mean, the word gets out pretty 
quickly.
    Ambassador Russell. It is----
    Senator Boxer. So----
    Ambassador Russell. I agree totally. And I think, 
especially given that they are working on domestic violence--I 
mean, it is truly just inexcusable----
    Senator Boxer. Right.
    Ambassador Russell. What happened, and----
    Senator Boxer. But, would it help if the chairman and I 
wrote another inquiry, and you could send it off, or you----
    Ambassador Russell. I think an inquiry is always great. I 
think just speaking out like you are doing today, they will 
know that.
    Senator Boxer. Okay.
    Ambassador Russell. If you continue to speak out, I think 
your voices are incredibly important and helpful in this 
matter.
    Senator Boxer. Well, they should know that we care a lot 
about this.
    Ambassador Russell. Yes.
    Senator Boxer. And it is just--you cannot say, on the one 
hand, ``We are really letting people go,'' on the other hand--
--
    Ambassador Russell. Exactly.
    Senator Boxer. You are harassing them and intimidating 
them----
    Ambassador Russell. Exactly.
    Senator Boxer. And frightening them to ever open their 
mouth again.
    Ambassador Russell. I agree.
    Senator Boxer. That is just not what we do in life, or 
should not be what we do.
    Ambassador Russell, in your testimony, you state that one 
of your top priorities is addressing the needs of adolescent 
girls, particularly improving access to secondary schooling. It 
is so important, because we know research shows that girls who 
attend secondary school are healthier and more productive 
members of society. And I understand your office is currently 
developing a comprehensive strategy specifically focused on 
adolescent girls. Can you tell us a little bit about the 
strategy, when you hope to release it, and what you hope it 
will achieve?
    Ambassador Russell. I can. And thank you for that question.
    I think adolescent girls is one of the issues that is most 
important to me, personally, and to our office, because, as we 
have traveled around, we have seen the impact of--all of the 
terrible things that happen to women around the world are 
really just horrible for these young girls. And what--the 
international community and the United States have spent a lot 
of time and money and effort educating children, and we have 
really made a dent in the number of primary school kids who are 
not in school. And we have done a good job on that. But, we are 
seeing that, at the secondary level, girls are dropping off in 
alarming numbers, particularly in sub-Saharan Africa and South 
Asia. And the problem for those girls is that they are so much 
more vulnerable to everything else that can happen to them: 
gender-based violence, HIV, trafficking, all of it. It just 
makes them--they are so much more vulnerable. And they are 
never really in a position to participate fully in their 
economies. That was the genesis of this.
    And I think the idea is that we need to address this--and 
this is my view about all of the work we do--we have to try to 
address these issues in a comprehensive way. And that, I would 
say, has not always been the strength of the international 
community. We tend to do one thing or another. And we are 
looking at taking this group of girls--the single most 
important thing we know we can do is keep them in school, but 
even keeping them in school--it is not so easy just to build a 
school; you have to figure out what the reasons are that they 
are not going to school, why are their parents getting them 
married off, why are they subjected to violence either in the 
school or on the way to school. It is a very complicated set of 
problems. But, we are committed to addressing them 
holistically. And that is--that was the purpose, and is the 
purpose, of the strategy.
    Senator Boxer. So, just cutting to the chase, when will you 
have something for us to see on this?
    Ambassador Russell. Well, it is--I would say it is almost 
finished and has to go through the clearance process----
    Senator Boxer. Good.
    Ambassador Russell. At the State----
    Senator Boxer. Well, we will look----
    Ambassador Russell. Department.
    Senator Boxer. Forward to it.
    Ambassador Russell.Russell. So, that could be, like, 2 days 
or 10 year--no, I am just----
    Senator Boxer. Well, I----
    Ambassador Russell. We will get it done. We will definitely 
get----
    Senator Boxer. Well, remember, the President only has a 
limited time, so----
    Ambassador Russell. Exactly. Exactly.
    Senator Boxer. I have one last question, and then I am 
going to leave it to you.
    I wanted to ask this to Mr. Feeley, so he does not feel 
that he is left out. Latin America and the Caribbean have 
booming renewable energy markets. In 2013, over $7 billion was 
invested in renewable energy in countries including Brazil, 
Chile, Mexico, Costa Rica, Peru, and Panama. The Caribbean 
wants to break free from its dependence on Venezuelan oil. And, 
as far as I am concerned, that is a good thing. Chile and 
Mexico are discovering that solar power is an inexpensive 
source of power for many projects, and many countries are 
looking to renewable energy as the way to make bold commitments 
ahead of the upcoming Paris Climate Conference. What are we 
doing to promote renewable energy in the region? And what more 
can we do to help American clean energy companies take 
advantage of the tremendous growth opportunities in Latin 
America and the Caribbean?
    Mr. Feeley. Thank you very much for that question, Senator 
Boxer.
    We are doing quite a bit. In point of fact, we agree with 
you completely that this is an area where we absolutely must 
demonstrate American leadership. The Vice President has 
launched something called the Caribbean Energy Security 
Initiative. We held a summit here in January. The focus of 
this, frankly, as you rightly put, is not necessarily on 
Venezuela, but it is using technology and using the force of 
markets to get one of the world's most energy-dependent 
regions--dependent upon imports--to a place where they can have 
the same types of reliable, secure, affordable energy that 
comes from a diversified energy mix, in terms of both 
generation and distribution.
    CESI, as we call it, the Caribbean Energy Security 
Initiative, has received tremendous welcome in the region. You 
may be aware that the President just traveled to Jamaica. And, 
in that trip, the President announced a--for a clean energy 
finance facility for the Caribbean in Central America. This 
will be a $20 million facility that will encourage investment 
in clean energy projects in the region. It will provide early-
stage funding to catalyze greater private- and public-sector 
investment, and will be working very closely with our 
colleagues in the Overseas Private Investment Corporation. So, 
it is on our, sort of, frontal lobe. As they say in Spanish, 
``[Spanish phrase],'' it is right there.
    Senator Boxer. I like that.
    Mr. Feeley. And we are going to continue to push it.
    Senator Boxer. Mr. Chairman, I am going to leave this to 
you. I wanted to say, for me, getting them away from having to 
deal with Venezuela on their energy lifeline is a good thing. 
Just for the record.
    Senator Rubio. Thank you.
    Senator Perdue.
    Senator Perdue. Thank you, Mr. Chairman and Ranking Member. 
Thank you for holding this very important hearing.
    And thank you for your attendance and testimony.
    I want to make a comment. Senator Gardner and I just got 
back from a trip to the Middle East, and we saw five 
Ambassadors over there, and many staff. I want to tell you how 
impressed we are with State Department personnel who devote 
their careers to Foreign Service. And I just want to thank you 
for your career of contributions. You know, we all seek 
perfection. And there is no such entity. But, I admire what you 
guys are doing.
    I want to change the topic a little bit to Haiti, briefly. 
I was very blessed to go on a mission trip, after my first 
election, last November, to Haiti, to a small town called Grand 
Goave--it was about 45 miles southwest of Port-au-Prince--to a 
projects--an orphanage, basically--well, it was an orphanage 
sponsored by the Good Samaritan Project. I was really troubled. 
We had about 275 kids there. A significant number of those kids 
had parents in the location--in the area environs there, 
southwest of Port-au-Prince, but they had given their kids up 
to the orphanages because they could not feed them. Now, this 
is 5 years after the catastrophe there, the earthquake. Their 
church, their school, their dormitory had all been destroyed. 
Total--no injuries. A miracle. They were out playing soccer. 
But, a miracle, nobody injured. But, here we are, 5 years 
later, and, even with all the money--3\1/2\ million--3\1/2\ 
billion dollars we have poured into that--and, by the way, you 
know, I was so proud, at the time that happened, with U.S. 
support there. The Navy, all the NGOs, all the religious, all 
the other foundations that were pouring time, money, and people 
in there. And yet, here we are, 5 years later--I am not 
criticizing. I just want to know, Madam Ambassador, you know, 
what--what is your take on what is going on there, particularly 
as it affects young mothers who are having to give their kids 
up to these orphanage because they cannot feed them?
    Ambassador Russell. Senator, thank you. Thank you for 
taking that trip. I traveled there, shortly after the 
earthquake, with the First Lady and Dr. Biden, and was truly 
shocked at the devastation that I saw, the people living on the 
streets. And I know that, throughout this time--and I am sure 
Assistant Secretary Feeley can discuss this more--but, we have 
made an investment and have had some success, moving forward, 
but the challenges remain. And what we are very concerned about 
in my office are the issues that you raise of the violence that 
these children are facing, the fact that they are not really 
being well taken care of, and the violence that their mothers 
are facing in their communities and in their homes. And I 
think, you know, we--USAID is doing a fair bit of work there, 
working hard on it, but I do recognize that it is a continuing 
challenge.
    Senator Perdue. Secretary Feeley, I would like your 
comment. But, also, how do you evaluate, you know, the money--
not just the money; it is the time, the heartbreak, everything 
else that we have put into countries like that after the fact 
to evaluate the effectiveness of what we do in catastrophes 
like that.
    Mr. Feeley. Absolutely, sir. I would just echo what 
Ambassador Russell said, and what you said. Haiti is perhaps 
the most difficult case that we have of persistent 
underdevelopment in the Western Hemisphere. And it is a 
testament to the very good people of the United States that, 
every time I travel through the Miami Airport, I see the 
brigades of kids in T-shirts from churches and communities. 
That is all absolutely necessary, but it is not sufficient.
    One of the things I think that we have to look at is the 
manner in which our policy, in addition to our programming 
assistance to work on the development issues--the education, 
the child/maternal health, the basic delivery of services--how 
our policy toward Haiti is absolutely essential. Supporting 
elections coming up this year, providing in Haiti what they, 
frankly, have not had for a very, very long time, which is a 
regular, predictable, strong democracy, where you have multiple 
voices from civil society that are included, that has got to be 
one of the metrics. It is not--nobody in my building, and no 
Secretary of State, is going to say that we are there yet. All 
democracy strengthening is never an end zone, it is a constant 
process. But, I do think that we have, with the elections 
coming up this fall--we have an opportunity to continue to help 
that, frankly, blighted country.
    I would also say that our assistance has made inroads in 
making sure that we are addressing the emergency aspects. And, 
you are right, it is 5 years after. But, there is still food 
insecurity in Haiti. There are still--you have flown over it--
--
    Senator Perdue. I am sorry. Food insecurity?
    Mr. Feeley. Food insecurity, meaning that they are unable 
to feed all their people.
    Senator Perdue. I have another word for that, but----
    Mr. Feeley. And we call it--that is the technical term.
    Senator Perdue. I know. I know.
    Mr. Feeley. The term ``hunger,'' many----
    Senator Perdue. In your heart. It is a terrible situation.
    Mr. Feeley. It is horrible. And if you have flown over the 
Dominican Republic and Hispaniola, you can see where the 
deforestation line is right there. So, our assistance goes to 
trying to reforest, trying to provide money to small 
communities, and provide technical assistance so that they can 
grow sustainable crops, so that they can feed themselves. There 
is a program that is been very successful, the Global Cookstove 
Initiative, whereby, in Haiti, as you know, they have got to 
burn trees to get the carbon to heat their water so they can 
avoid cholera. Cookstoves--solar cookstoves, the use of 
technology, all of those things go into it.
    We absolutely agree with you that we have to keep Haiti as 
a priority. We do keep Haiti as a priority in our 2016 request. 
And we will continue to work with this committee and with, 
frankly, the very good people of the American religious and 
civil society communities.
    Senator Perdue. Secretary Bennett, would you follow up on 
the elections? You brought it up, Secretary Feeley. I would 
love to hear what the State Department's doing to influence an 
open and honest, forthright election process there. Because I 
agree with the Secretary. I think if you are ever going to 
solve the problems there, we have got to get a participatory 
representative government there.
    Ms. Bennett. Thank you, Senator.
    We engage very assiduously on this point, both--some of us 
publicly, but privately in our dialogue with the government and 
with civil society organizations in Haiti. From the DRL 
perspective, we do not have a foreign assistance, sort of, 
niche in Haiti, either if it is their much more basic needs, as 
my colleagues have identified, that are right at the top of the 
``urgent'' list. But, having a reasonable elections process is 
absolutely critical to, you know, the prospect of future 
success. And so, our encouragement in that regard, I think, is 
well.
    Senator Perdue. Are you optimistic with this next round?
    Ms. Bennett. I think that I will defer to my colleague 
here.
    Mr. Feeley. I will jump on that grenade, sir.
    Sir, the legislative, local, and Presidential elections are 
going to be held in three rounds, we hope. This is one of those 
places where diplomacy and the strength of an American 
diplomatic presence, quite frankly, is worth more than money 
and funding. The political will to be able to make the hard 
decisions within Haiti--they have got a terribly, terribly 
fractious situation with vying and competing parties and within 
their own legislature. They have got significant logistical--
just simply, How do you get Haitians in from places to vote? 
How do you count those votes? So, I am not going--and the 
reason I will not do this is because, as you are aware, sir, we 
have a Special Haiti Coordinator, and so it does not always 
fall directly to the Western Hemisphere. But, one thing we do 
do in my purview is, we support election monitoring. It is one 
of the strongest and best exercises that we undertake in the 
Western Hemisphere to ensure that elections are as transparent 
and as well run as possible. And we will certainly be doing 
that. And I believe that, with MINUSTAH providing the security 
presence--and, although there is going to be a drawdown at the 
end of the year, and they are proceeding toward that, we will 
look to international solidarity and to our hemispheric 
partners. That, again, is a function of our diplomacy, getting 
those governments who support free, fair, transparent elections 
and want to support the Haitian people onboard in this effort.
    Senator Perdue. Well, thank you for your testimony. Thank 
you for your service.
    Thank you, Mr. Chairman.
    Senator Rubio. Thank you.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair, for calling this 
hearing.
    And thanks, to the witnesses, for your testimony.
    The Americas have all the challenges that we have 
described, but there are some real opportunities now. And one 
that I think is kind of interesting is that we might be on the 
verge of two continents without war, with the negotiations in 
Colombia over the end of that civil war. And for any continent 
to say that is pretty unusual if you look at the globe today. 
And for the Americas to say that--I do not know if there has 
been a period in history where the Americas could say that. 
What is the current status of the negotiations between the 
Colombian Government and the FARC? The United States is playing 
an important role accompanying the government in those 
negotiations. But, Secretary Feeley, if you could update us on 
that.
    Mr. Feeley. Absolutely, Senator. And thank you very much 
for your personal commitment to the Americas, in the multiple 
trips that you have taken.
    You absolutely put your finger on it. The support for a 
Colombian peace process remains at the top of the President's 
hemispheric agenda. As you are aware, we have recently tapped 
former Assistant Secretary Bernie Aronson to join in at a 
strategic moment in those talks between the FARC and the 
Government of Colombia.
    Whenever I talk about Colombia, I have to be careful not to 
get too sentimental, because I worked there in 1992 and 1993. 
December 3, 1993, Pablo Escobar was taken down. December 5, I 
was walking with my two little kids and a car bomb went off 
about six blocks away. That was just [Spanish phrase].
    Senator Kaine. Every day.
    Mr. Feeley. That is what it was, and you remember it. 
Colombia has become a country transformed into a net security 
exporter cooperating with the Mexicans, cooperating with the 
Central Americans, to take much of the professionalization of 
their police and their military and now provide that to 
countries that are suffering many of the same symptoms--
different causes, but many of the same symptoms--that are the 
product of transnational criminal organizations and the 
violence they do.
    You are well aware that they have closed three chapters in 
the discussions in Havana. We will be doing everything we can 
to support President Santos in seeking a successful finish to 
the negotiations. I think it is very important for the American 
people--and I thank you for this question so that we can get it 
out--for the American people to understand this is the longest 
running continuous insurgency in any country in the world. And 
the Western Hemisphere, by and large, is blessed not to have 
state-on-state conflict, not to have the types of ethnic 
cleansing or sectarian struggles that we see that make the 
Middle East such a riven area.
    So, our job right now is to support the President. There 
are going to be some very difficult political decisions to be 
made. You are well aware of the split between President Uribe 
and President Santos, where there are the hard issues about 
military justice. And this is one of the areas where I think 
our commitment to human rights and the rule of law, which has 
been consistent in Colombia--not necessarily always perfect in 
its implementation, but held out as a goal--and the inclusion 
of women in conflict in those discussions is one of the things 
that we support very strongly.
    I will take a guess on this one, because Colombia does come 
in my portfolio. I am cautiously optimistic, and I would say 
that I believe the Secretary is, as well.
    Senator Kaine. Excellent. Thank you, Secretary Feeley.
    And I am going to segue, using Colombia as an example, to 
the plan for Central American engagement, the President's 
proposed billion-dollar investment in the Northern Triangle. 
These are challenging countries with high violence rates, high 
poverty rates. The Unaccompanied Minors Program demonstrated 
that. But, in the hemisphere, we could have reason to be 
optimistic. Colombia went from failed state to security 
exporter and third-largest economy in Latin America within the 
space of 15 years. And Mexico now has no net migration to the 
United States because of improving Mexican economy, even amidst 
violence challenges. So, there is reason to believe that an 
appropriate level of support, as we did with Plan Merida or as 
we did with Plan Colombia, could have a positive impact in the 
Central American nations.
    I visited Honduras with Senator Cornyn in February to go 
back and talk to friends there and hear about, really, the way 
that an investment of this kind could be managed to have the 
biggest bang for the buck. You could waste a billion dollars or 
you could spend a billion dollars that would really help put 
the Northern Triangle on a path similar to the arc that 
Colombia or Mexico have been on.
    So, talk a little bit about what we are doing in dialogue 
with the leaders of those three nations, and especially with 
civil society in those three nations, to figure out how--if we 
were to get that investment through the appropriations process, 
how would we program it in those countries to have the biggest 
impact on security and economic improvement?
    Mr. Feeley. Absolutely, sir. And thank you very much for 
that question. And again, thank you very much for your personal 
support, your interest, and your expertise in that region.
    The new Central American strategy for engagement calls for 
three basic lines of action: promoting prosperity and regional 
economic integration, promoting improved governance and 
fighting corruption in government inefficiency, and enhancing 
security. Note that I put security last. It does not mean that 
it is, in order of priority, last; but what it does mean is 
that we have learned, in working with this committee, in 
working with American and civil society, in working with our 
Colombian and our Mexican partners, that you do not go after 
the types of problems that afflict the Northern Triangle, where 
you have very weak institutions, where you have serious 
scofflaws and weak rule of law, where people basically do have 
the opportunity to commit crimes and get away with them, and 
impunity levels are high--you do not fix those problems, which 
are deeply rooted and systemic, by simply going to a security 
strategy.
    You have to do a whole-of-government holistic approach to 
all of it. That is why our strategy, which--I will be very 
frank, and I think it is been told before--we had actually 
begun an Central American strategic review. Roberta Jacobson 
and I had sat down, had talked to our folks, and wanted to move 
CARSI. We were, in the, sort of, words of--many people, I 
think, claim this quote--``never waste a good crisis''--we were 
shocked, quite frankly, Senator, last year, when we saw the 
visages of those kids, of those women who were coming north 
because they had gotten bad information about immigration 
reforms and things like that. The push factors are incredibly 
strong. The push factors can only be sort of mitigated by a 
political will from the countries that are down there, and the 
leadership and the Presidents and their teams. We believe we 
have that. We have seen a number of hard decisions already 
taken by many of them. Honduras has extradited people, with 
great personal threat to senior leaders and judges. The 
President in Guatemala extended CSIG, the U.N.'s body that 
investigates crime and impunity, originally dating from the 
internal conflict that ended in 1996, and now has developed 
tremendous expertise in going after precisely the impunity that 
does ail all three of those countries. El Salvador has an anti-
extortion law. They have passed anti-money-laundering 
legislation.
    These are real movements, real changes and reforms that 
give us the confidence that we are working with people who do 
have the political will and the commitment, and that they will 
be putting in significantly more of their own resources. They 
will be taking the steps needed to do tax reform, to do the 
types of--in Honduras, they will be doing special bonds. This 
is something we learned from Colombia as they did their war 
bonds earlier.
    So, our report--I am sorry--our request is significant. How 
will we go ahead and spend it? In general, we look to--of the 
billion dollars, we are looking at 314 million for security, 
437 million for prosperity, 248 million for governance.
    Let me give you just one example--I do not want to 
filibuster here--one example of how we will work in each of 
those areas.
    When we talk about working with governance, what are we 
talking about? We are talking about making government 
responsible to the people. That means, in many of these 
countries, and in the Northern Triangle, the leaders themselves 
will tell you they have to root out corruption. Government 
corruption is something that absolutely saps the strength of 
any country that seeks to provide a better future for its 
people. Take a look at what Honduras has done. They have 
invited in the Transparency International to set up an office 
in that country.
    In prosperity, what have we got? We have got a number of 
programs that we will, hopefully, with this--with this 
Congress' assent, we will be able to fund better--broken down 
into a number of entrepreneurial activities. There is something 
called the WEAmericas Program, which is a public/private 
partnership that seeks to leverage private sector in both 
regions to create the capacity for women in those countries, 
wherever we--and we currently do it throughout the hemisphere--
we have trained over 20,000 women from 20 countries to step 
into what we call ``the missing middle.'' There are plenty of 
micro entrepreneurs in Latin America, as you well know. They 
work out of their home, they work in the informal sector, they 
are not banked, they do not have--they do not pay taxes, they 
do not have the ability to go to a civil court to settle 
disputes. How do you take those women and move them? Well, 
there are a lot of smart people, smarter than me, who were able 
to figure that out. That is what that program does.
    We have something called the Small Business Network of the 
Americas. This takes the great American ingenuity that we have 
in small business incubators, whether it is at the University 
of Texas at Austin, whether it is in small chambers of commerce 
around the United States, and we link them, both virtually and 
directly, with small business incubators in Latin America. We 
have been running this for about 3 years. We would seek to 
continue that in an effort to push prosperity from the ground 
up to create opportunities for folks.
    And finally, in security. We have been doing this under the 
Central American Regional Security Initiative, as you well 
know, for a number of years now. We need to help them 
professionalize their police. I have to say, I am--sound like 
Bill Brownfield here--but, it does begin with the police. It is 
not absolutely sufficient. You have to go beyond. But, until 
you have community policing, where average Hondurans and 
Salvadorans and Guatemalans see a cop and do not run away from 
that cop, you are not going to have security on the ground.
    Senator Kaine. Thank you.
    Senator Rubio. Thank you.
    Senator Flake.
    Senator Flake. Thank you.
    Mr. Feeley, the budget request for FY 2016 includes a 
request for roughly $6 billion--oh, I am sorry, $6 million, 
gratefully, for converting the U.S. Interests Section in Cuba 
to an embassy. Just to be clear, that is separate and apart 
from--you know, this infrastructure that is requested is 
separate and apart from establishment of diplomatic relations, 
right?
    Mr. Feeley. That is correct, sir. That comes under the--
that would come under what we call our diplomatic and consular 
programs budget. And we are asking for a roughly $6 million 
increase over FY14 to be able to offer the types of services 
that would be needed when--if and when diplomatic relations are 
reestablished.
    Senator Flake. Right. Those types of services, I am 
interested what you expect to be providing that you are not 
providing now with the Interests Section. The assumption there 
will be more American travelers down there, some will be doing 
more business that will be allowed. Can you just give some 
sense----
    Mr. Feeley. Certainly, sir.
    Senator Flake. Of what we will be doing?
    Mr. Feeley. As you are aware, we are the largest diplomatic 
mission in Cuba. That is a tremendous surprise to many people. 
The fact that we do not have formal diplomatic relations does 
not mean that we do not have a full diplomatic mission down 
there. It is currently called the U.S. Interests Section. We 
have been in there since 1977. It was built in 1953. And, quite 
frankly, there is no more room at the inn. It does not fit, it 
does not support active diplomacy in the way that we need it 
to.
    So, we would be--the services we currently provide are 
consular services. These would be the standard American citizen 
services, requests. Several months ago, you--or actually, it is 
about a year ago now--you might recall there were some American 
fugitives who took a sailboat down there. We worked with Cuban 
authorities to be able to find them and to bring them back to 
face justice in the United States. The consular section works 
with the Department of Homeland Security very closely to 
implement the Cuban Family Reunification Program in the1994-95 
Migration Accords. We have political and economic reporting 
that we do from down there. These are the people who go out and 
meet with independent Cuban civil society actors. An average of 
2-to 300 encounters a week--they write the cables, they inform 
us as to the reality on the ground, they do the support 
activity for many of those brave individuals. We also have got 
law enforcement liaison down there.
    So, I can go on. I do not want to take up too much of your 
time. But, more or less, it looks like a lot of other embassies 
that we have in the region, but we do not have formal 
diplomatic relations.
    Senator Flake. The current Interests Section sits right 
along the Malacon. I think it is about 47,000 square feet. Is 
that going to be expanded, or simply refurbished or brought up 
to----
    Mr. Feeley. It is a very good question, sir. Right now, we 
are still, as you well know, in the midst of negotiations to 
establish diplomatic relations. That is a process, and that 
will take some time. And, honestly, I cannot tell you when that 
will happen. When it does happen, we do not anticipate, 
certainly in this calendar year, that we will be requesting any 
funding or assistance. It will be basically a revenue--or, I am 
sorry, a cost-neutral exercise.
    But, in out years, as our diplomatic activity ramps up, as 
we keep human rights, and as we keep the promotion of democracy 
and promoting a peaceful, democratic transition on the island, 
we would anticipate that we will need upgrades. For example, we 
do not have a fleet of cars. Most embassies--and you know this. 
When you travel, the U.S. Embassy provides transportation 
assistance, security assistance for visiting Senators and 
congresspersons. We need to do that. We do not have--and you 
know this--we do not have the IT infrastructure that we need to 
run a modern 21st-century Embassy in Havana. And so, we would 
need that.
    So, we do not have any requests in to expand our personnel 
at this time. It would be primarily for the types of physical 
upgrades that would take a 1953 building and make it something 
that is adequate for 2015.
    Senator Flake. We have about 50 FTEs there now.
    Mr. Feeley. That is correct, sir. We have approximately 50 
U.S. direct-hire personnel, and the rest are Cuban employees 
who come from PALCO, which is the government service provider 
that provides diplomatic personnel to all of the embassies in 
Cuba.
    Senator Flake. Right.
    Mr. Feeley. Another anomalous, nontraditional diplomatic 
situation, as you are well aware.
    Senator Flake. There has been at--the administration has 
requested $20 million for the Cuban Democracy Fund or to 
promote democracy and human rights. I am sure you are aware--
and some of this is not directly related to the State 
Department; it is USAID--but, we have had some issues there. It 
was--Alan Gross was recently released after 5 years in prison 
there. He was there on a USAID-funded project. There have also 
been stories in the media--the fake Twitter accounts, HIV 
clinics as front for other activities. What is going to be done 
in the future to ensure that at least those who are on the--the 
end users, I guess, or participants in Cuba, are aware that 
they are--of the program that they are participating in? My 
concern has been--well, a couple of concerns. One, that you 
have some Cubans who are put at risk--considerable risk--if it 
is found out--and they may not even know that the program that 
they are participating in--are we going to have better 
transparency, moving ahead, than we have had in the past in 
these programs?
    Ms. Bennett. Thank you, Senator. I think that is a really 
good question.
    Yes, the administration requested $20 million for FY16. And 
I think, in Assistant Secretary Jacobson's and Malinowski's 
testimony, they did commit that we would not cut back on these 
programs, simply because of the importance we attach to 
advancing the space for human rights in Cuba.
    I cannot speak for my colleagues at USAID. We do have a 
very collaborative relationship with them. But, I would just 
say, here--and perhaps we should have, perhaps, a more private 
conversation about what some of these programs entail to 
protect the people with whom we do work. But, to the extent 
that we will continue to manage our programs in Cuba in a 
manner that does protect human rights activists from further 
reprisal.
    Senator Flake. Okay. I----
    Ms. Bennett. These are very, very brave people, and we are 
committed to ensuring both their safety and that they continue 
the important work that they are doing.
    Senator Flake. Well, I think it is important that we not 
only protect them, but protect the reputation of USAID in other 
areas of the world in which they work. And if it is assumed 
that these may be semi-covert or discreet or whatever you want 
to call it, that does not serve us very well in other areas. 
And so, I will be following up on this. I have already had 
discussions with USAID. But, we cannot allow to go on in the 
future what has gone on in the past in this regard.
    And, Mr. Feeley, you wanted to add something?
    Mr. Feeley. Yes, Senator. I just wanted to say, as you are 
well aware, these programs did come to an end in recent years. 
We have not engaged in any programs like ZunZuneo or the 
others.
    I simply would like to make a plea--well, a thanks and a 
plea to the members of this committee. I have had the enormous 
privilege of meeting a number of these very brave people, 
having Berto Soler come up, of having Rosa Maria Paya come up, 
of--I have gotten to know Yoani Sanchez quite well. What they 
all tell us is that, when we are very publicly supportive of 
their work, it does provide them with--not a complete shield, 
but with a little bit of protection from some of the activity. 
Now, we are well aware that there are many activists who are 
detained. Short-term detentions have gone up. That is 
absolutely intolerable, and we will continue to cry out against 
that as we go forward. Your continued support, from this 
committee and from your colleagues in the Senate, is enormously 
helpful.
    Yoani Sanchez said to me one time, she said, ``You have no 
idea how helpful it is to have the names of individual Senators 
and congresspersons being bandied about on the Mesa Redonda, 
which is their nightly talk show. And, while they may not be 
taking those names in the most favorable of terms, it does 
provide a measure of international solidarity and protection 
for them. So, I thank you for that, and I would encourage all 
of you to continue that with us.
    Senator Flake. Thank you.
    My time is up.
    Senator Rubio. Thank you.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    The U.N. Committee on Enforced Disappearances has raised 
serious questions about Mexico. Reportedly, 26,000 people 
disappeared just since 2006. There has not been the kind of 
focus by the Mexican Government on this issue that satisfies 
the families or, I think, satisfies the world community. We 
are, in your budget, receiving a request for $80 million for 
security cooperation with Mexico--a multiyear security 
partnership. And that is meant to fight organized crime, it is 
meant to accomplish a lot of goals. But, I think one of the 
goals that we should accomplish, as well, is dealing with this 
disappeared persons question, 26,000 people.
    So, how can we leverage this funding in order to make sure 
that the Mexican government gives us the answers that we want? 
Some people have said that there should be a publicly available 
Web site, where all the names are up, and their status. Should 
we make that a condition of our $80 million assistance? What 
can we do, you know, to pull back the curtain and to use our 
clout in order to get the answers for these families?
    Mr. Feeley. Thank you, Senator, for that question.
    You put your finger on exactly what is one of the most 
difficult challenges in our relationship with Mexico. Mexico is 
a strategic partner, and Mexico's transformation, much like 
Colombia's, has been stunning. And we have the entire 
commercial side of our activity that is in direct benefit of 
the American people through trade and through commerce and 
through family exchanges, et cetera. Where we are still in a 
process very much of helping Mexico in a new paradigm of 
cooperation under the Merida Initiative, where we are in terms 
of this request for 80 million, which is, specifically, the 
INCLE funding that we would be asking, is very much where you 
are, sir, to use that, in conjunction with effective diplomacy 
and partnership, to make sure that Mexico is able to 
investigate the people, not just in a Ayotzinapa and Iguala and 
Tlatlaya and the other places where some of these horrific 
disappearances occur----
    Senator Markey. So, what conditions should we attach to our 
funding that could effectively ensure that the Mexican 
government is creating the transparency, which----
    Mr. Feeley. Well, there are----
    Senator Markey. It needs to make sure that this secret 
system is ended? Only if we apply our clout----
    Mr. Feeley. Yes, sir.
    Senator Markey. Is there ever going to be an answer?
    Mr. Feeley. Well, there already restrictions on past-year 
Mexico funding, as you are aware, dependent upon human rights 
reports that we routinely submit and we work with both 
appropriators and with authorizers to ensure that we get the 
best answers that we can.
    I think it is important to understand and to signal, here, 
that, in the case of Iguala, which is a horrible tragedy and 
which we made our repulsion, frankly, at what had happened very 
clear, it appears to be, in the investigation, where they have 
got--where the Mexican authorities have got over 100 people 
detained, they have got a number of--whom they believe to be 
the intellectual authors and the actual people who carried it 
out, those Guerreros Unidos--they have got them in a judicial 
process. We--every time we talk to them--and we just had 
Secretary Malinowski, we just had Deputy Secretary Blinken in 
Mexico, we raise it with them, and the Mexicans know very 
clearly----
    Senator Markey. Is it unreasonable to request a publicly 
accessible database of all of the names of the missing? Is that 
an unreasonable request for the United States to make of the 
Mexican Government as part of our--a transfer of $80 million to 
them?
    Mr. Feeley. My understanding, sir, is that the Mexicans 
have been working on--in the Ministry of Government--on getting 
databases. This is--and I cannot give you a specific status 
report on their efforts. But, I would point to their----
    Senator Markey. So, you are saying they are going to put up 
a database with all the names of all of the missing? Is that 
what you are saying?
    Mr. Feeley. I cannot say that, sir.
    Senator Markey. Well, I think that is the question. You 
know, should we----
    Mr. Feeley. It is a good question.
    Senator Markey. Should we condition our funding on them 
putting the names up?
    Mr. Feeley. Yes.
    Senator Markey. Twenty-six thousand people. You know, we 
are still talking about Argentina, from 30 and 40 years ago, 
huh? We are still trying to come to grips with that. This is 
the here and now. This is----
    Mr. Feeley. Well, as you know----
    Senator Markey. This is 20 years post-NAFTA.
    Mr. Feeley. Yes, sir.
    Senator Markey. This is with a request for us to be 
cooperating with them. This is with children on our borders 
last year in a partnership with them. Should we not be 
requesting that transparency?
    Mr. Feeley. We request transparency in a number of ways. 
And if you take a look at the recent anticorruption law that 
was passed to----
    Senator Markey. No, I am talking about a database.
    Mr. Feeley. Information.
    Senator Markey. I am saying, ``Put the names up there''----
    Mr. Feeley. Yes, sir.
    Senator Markey. ``Mexican government. Let us see, tell--
prove to us that you have a government that is willing to come 
to grips with the actual names listed, that the families can 
see, that questions can be asked about.'' Can we do that as a 
government?
    Mr. Feeley. Sir, in general, having maximum flexibility to 
spend and work, in coordination and in consultation with the 
Senate, maximum flexibility to decide how we will spend our 
money with the Mexicans, is what every administration seeks, 
and we are no different.
    What I would say is this. We have developed what I call--
and I have had the privilege of working in Mexico on two 
separate occasions. And the history of cooperation with Mexico 
on human rights, on democracy, on transnational organized crime 
is one that has, indeed, taken a quantum leap forward----
    Senator Markey. And I appreciate that. I am dealing with a 
specific----
    Mr. Feeley. The one specific thing----
    Senator Markey. Dealing with this----
    Mr. Feeley. I got it.
    Senator Markey. 26,000 missing persons. And that is----
    Mr. Feeley. Yes, sir.
    Senator Markey. That is all I am dealing with. Everything 
else is----
    Mr. Feeley. I hear you.
    Senator Markey [continuing]. Not part of this conversation. 
I just want to get an answer to that. A Web site, a--something 
that is transparent, something that actually would bring 
accountability. You know? Why do we not just ask the Mexican 
Government to do that, and condition the funding on that? I 
mean, talk about crime, talk about a suspect area, where you 
are wondering----
    Mr. Feeley. Sure.
    Senator Markey [continuing]. How much can we trust a 
government on the rest of their cooperation when they will not 
even list the names of the people who have disappeared. And----
    Mr. Feeley. Sir, that is something we will take back----
    Senator Markey [continuing]. Conditions under which they 
disappeared?
    Mr. Feeley. Let me take that back.
    [The information referred to follows:]

[COMMITTEE INSERT]

    Mr. Feeley. One thing I would point out, and you know this 
from your experience with other countries. Those numbers are 
very difficult to pin down because of the very nature of 
disappearances. How many are reported? How many are not?
    Senator Markey. That is the problem.
    Mr. Feeley. And that is----
    Senator Markey. What I am saying is----
    Mr. Feeley [continuing]. And in the Ministry----
    Senator Markey [continuing]. If there was a Web site, then 
people could say, ``Hey, the name is not up on that Web site. I 
want my family member up on that Web site, too.'' There would 
be a mechanism that would then be publicly, you know, listed 
that would give those families, you know, the reason to say to 
human rights groups, ``They are not putting my family member's 
name up there, as well,'' huh?
    So, I just think that, from our government's perspective, 
it is kind of a simple thing to do, but I think it would be a 
powerful tool that would be used by families who believe they 
have been abandoned, believe they are just nonpersons, huh? 
Just having your name up there, it is like having a loved one's 
name on the Vietnam Wall.
    Mr. Feeley. Yes, sir.
    Senator Markey. It is just--it is recognition. You know, 
you can touch their spirit, at least. You know? It keeps hope 
alive in a family.
    So, I would just say to you that I think that is a powerful 
opportunity for the U.S. Government to act, and to act in a way 
that I think would empower people to say to their government--
--
    Mr. Feeley. Thank you, sir.
    Senator Markey [continuing]. ``Please give us the answers 
to our family.``
    Thank you, Mr. Chairman.
    Senator Rubio. Thank you.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman. I am glad to be 
back. We had the President of Armenia. So, I appreciate the 
opportunity.
    Let me ask Ms. Bennett. Earlier this year, this committee, 
under the leadership of Chairman Corker, took a very strong 
interest in ending modern slavery, highlighted by an important 
hearing on February the 4th. On April 22, the Senate voted, 99 
to 0, to strengthen domestic penalties against human 
trafficking and to provide additional protections for victims. 
On the same day, Congressman Smith held a House subcommittee 
hearing examining the State Department's trafficking-in-persons 
report and emphasizing the need to maintain the integrity of 
the tier ranking system.
    Later that very same day, a strong 16-to-10 bipartisan 
vote, the Senate Finance Committee, accepted my amendment to 
the trade promotion authority bill to prohibit expedited 
congressional procedures for trade deals with countries ranked 
Tier 3 on the TIP report. Of course, Tier 3 is among the worst 
countries.
    So, do you believe that we should be in the midst of 
providing fast track for countries that are the worst offenders 
in human trafficking?
    Ms. Bennett. Thank you, Senator.
    I think the administration is deeply committed to 
preventing and eliminating all forms of trafficking in persons 
throughout the world. And I can just say that some of what I 
have seen in my own previous incarnations overseas in my 
Foreign Service capacity, it is--I mean, it is simply horrific. 
And so, we engage----
    Senator Menendez. We can agree to that. So, you and I are 
in agreement on that. My question, which could be a simple yes 
or no, is, Do you believe that we should be fast-tracking 
countries that have the worst record, under our own reports, in 
terms of human trafficking?
    Ms. Bennett. I think it is a fair point that economical 
engagement is a tool in our toolkit, and we are certainly 
following the amendment closely as it is under discussion, as 
the House and the Senate work through the bill.
    Senator Menendez. But, we have used economic engagement, 
and other countries have not moved off the list as a result of 
economic engagement.
    Let me ask you this. The State Department's 2015 TIP report 
is due to be released next month. In the State Department's own 
words, it, quote, ``is the U.S. Government's principal 
diplomatic tool to engage foreign governments on human 
trafficking.'' Now, all of us who share a deep concern about 
the scourge of human trafficking depend on the integrity of 
that report for the truth about where the trafficking is worse 
and what must be done about it. Is the issue, human 
trafficking, important to your work in the Bureau of Democracy, 
Human Rights, and Labor?
    Ms. Bennett. Yes, it is important to our work in the 
Bureau. I will just note that the trafficking-in-persons 
structure, the office that authors the report and advances this 
foreign policy priority programs, is actually separate and is 
not under my purview. That said, we work quite closely with 
them. And the--you know, and we work very hard to, sort of, 
deconflict, I would say, where they can provide some assistance 
that perhaps we cannot, and vice verse. We work very 
collaboratively.
    Senator Menendez. So, is there--and I understand, 
technically it is in----
    Ms. Bennett. Right.
    Senator Menendez [continuing]. Secretary Sewall's ambit. 
But, is the accuracy, the reliability, the integrity of the TIP 
report important to the Department?
    Ms. Bennett. It is, absolutely. This is a process that is--
you know, that every embassy in our world is vested in.
    Senator Menendez. Do you have any reason to doubt the 
integrity of the reporting process?
    Ms. Bennett. I do not, although I am not involved in it 
this year in quite the same way that I have been in prior 
incarnations, but----
    Senator Menendez. But, based upon your prior experience, do 
you believe----
    Ms. Bennett. No, I do not.
    Senator Menendez. Based upon your prior experience, are the 
rankings subject to political pressure, in light of other 
priorities?
    Ms. Bennett. My experience does not suggest that, but I 
cannot speak more broadly.
    Senator Menendez. Okay.
    Mr. Feeley, as you know, Cuba and Venezuela are ranked Tier 
3 in the TIP report, the worst ranking, which indicates they do 
not comply with the Trafficking Victim's Protection Act's 
minimum standards, and are not making significant efforts to do 
so. So, is the integrity of the TIP report important to your 
section of the State Department?
    Mr. Feeley. Undeniably yes, sir.
    Senator Menendez. Are you confident of the integrity of the 
report?
    Mr. Feeley. I believe that we work with our embassies and 
with our DRL and our trafficking-in-persons colleagues to 
produce the very best report that we can with the information 
that we have----
    Senator Menendez. So, even though Cuba is a Tier 3, one of 
the worst traffickers--Voyeur magazine had, a couple of years 
ago, ``the sexual hotspot of the world''--even though, in fact, 
it is a Tier 3, we are in the midst of giving them a series of 
concessions even though they are among the worst traffickers in 
the world.
    Mr. Feeley. Sir, the approach that the administration has 
taken to restart diplomatic relations with Cuba is in no way a 
reward for any perceived good behavior. We agree completely 
with you and Senator Rubio and many members who believe that 
the Castro government is a single-party state that clearly 
wants no part of democracy and which has systematically abused 
the human rights of its people. What I would say is that, with 
regard to TIP, the previous Tier 3 rankings, we believe that 
they have been justified, based on the specific criteria of the 
TIP law.
    Senator Menendez. Yes. Well, let me just say that--so, you 
have a country that is a Tier 3 ranking, you have a country 
that violates U.N. Security Council resolutions in shipments of 
arms to North Korea, for which it not even a slap on the wrist. 
You have got a country that just accepted--it was in the midst 
of receiving another shipment of arms, in violation of 
international law, that was probably headed for the FARC. You 
have a country that has Joanna Chesimard, a convicted terrorist 
on the FBI 10-most-wanted list of terrorists in the world, who 
killed a New Jersey State trooper. And I know we are not, you 
know, rewarding them for that behavior, but we are certainly 
not making progress on any of it.
    Let me ask you one last question, which is a broader 
question than beyond Cuba. In our democracy programs, I am 
sadly concerned. We have never in the world--our democracy 
programs have ever--being rejected by a totalitarian government 
or a repressive regime, that that has subverted the very 
essence of our democracy programs. And yet, there is a 
suggestion that somehow because a country does not like it or 
we did not tell them everything about our democracy program, 
which we work with a lot of groups in the world in which we do 
not tell them, the country that does not like the fact that we 
are trying to promote democracy on their country, that we would 
subvert it. So, I hope we do not go down that road, because 
then I, for one, will lead a charge, as much as I am the 
biggest supporter, and have been for 23 years, of our democracy 
programs, if we are going to start subverting it to a country 
that does not like it, and therefore, we are going to start 
changing what we are doing, then, to be very honest with you, 
that is a slope for which there is a lot of consequences. A lot 
of my friends who do not seem to have a problem with--you know, 
with what goes on in Cuba, but are very strong about places in 
Burma and other places in the world; yet, if you are going to 
start subverting democracy programs because a country rejects 
it because they are totalitarian, then that is a slippery 
slope, and I hope we do not get to that, Mr. Chairman.
    Thank you for the opportunity.
    Senator Rubio. Thank you, Senator Menendez.
    Secretary Feeley, let me touch on a couple of points here. 
And I do not know if any of the other members have any followup 
questions.
    I wanted to first touch on Colombia, the negotiations going 
on with the FARC. Has the Santos administration asked for Simon 
Trinidad's release or temporary release for purposes of 
participating in the peace negotiations?
    Mr. Feeley. Mr. Chairman, the Colombians have not asked us 
to release Simon Trinidad.
    Senator Menendez. Are you prepared today, on behalf of the 
administration, to state that the release of Mr. Trinidad from 
U.S. custody is a part of any future deal between Colombia and 
the FARC is off the table?
    Mr. Feeley. Senator, as you well know, Mr. Trinidad is 
incarcerated in the United States for very serious crimes. And 
I have to be honest, I am not--I cannot make final decisions 
that will be made by my superiors. What I will tell you is that 
our extradition relationship with Colombia is one of the most 
fruitful. I was privileged to participate in the beginning of 
it, before they had extradition of Colombian nationals, and 
President Santos and his negotiating team know what an 
incredibly serious tool this is and the priority that we make 
keeping our extradition relationship strong with Colombia.
    Senator Rubio. But, you can say that, as of this moment, 
you are not aware of any efforts to either release or 
temporarily release Mr. Trinidad.
    Mr. Feeley. What I can tell you, sir, is, I am not aware of 
any effort.
    Senator Rubio. Okay.
    I wanted to--I agree with this project, the Central 
American strategy and the billion dollars, obviously. But, here 
is what is important. How are we going to measure progress? Do 
we have benchmarks set for how we are going to measure success, 
what the project is going to look like? Because you touch an 
interesting point. And I have talked about this often. Whether 
it is the migratory crisis that we have now seen or some other 
issues regarding the Northern Triangle countries, there are 
entire parts of those countries that are not under the writ of 
the government. In essence, they are controlled by 
transnational criminal groups that terrorize the populace, and, 
quite frankly, are driving people out of there, for fear of 
their own safety and, of course, lack of hope in their own 
future. So, the idea that we would get involved in an alliance 
for prosperity, or I guess this is called the--I have met with 
the Presidents of all three countries, and their Foreign 
Ministers. This plan for prosperity is a good idea, but how are 
we going to measure success in these programs? What are the 
metrics?
    Mr. Feeley. Mr. Chairman, thank you for that question, and 
thank you for raising the importance of metrics.
    I said in my testimony that we have to be accountable and 
we have to work with you. I think one of the things that we--
before we began this effort, we looked to see if we could get 
some signals of measurable progress, the demonstration of 
political will. It was the assessment of the President and the 
Vice President that we did have indications--certainly not 
getting us over any goal line, but we did have indications from 
them. I mentioned some of them earlier. If you take a look at 
Honduras, they have dropped their murder rate. Still way too 
high, but they have dropped it 22 percent in the last year. If 
you take a look at what, in Honduras, they did in the Ministry 
of Public Security, they published a huge glossy that indicated 
almost where every lempira went, in terms of their spending.
    Go over to El Salvador. I mentioned earlier the 
antiextortion law. Take a look at what we did with El Salvador, 
in terms of our MCC compact, their second one, for $277 
million. There were a number of things that the Salvadorans had 
not done, in terms of making their domestic legislation 
regarding anti-money-laundering up to international FATF 
standards, the Financial Action Task Force things. We worked 
with them through our diplomacy, and we were able to get them 
to a place where we were able to approve that.
    You put your finger on it. Metrics are absolutely 
important. Now, having said that, I will also say, you can look 
at a whole bunch of statistics on inputs and not necessarily 
get the outputs that you seek. I used to tell people, when they 
would come and visit us, as you did in Mexico, that the--you 
know, what does success look like? I cannot sit here and tell 
you every single thing, but I can tell you that how a country 
presents itself and how the people of a country feel about 
their government, about their mayors, about their police, about 
their justices, and the building of that confidence, is 
extremely important. May be difficult to measure, but we can 
use polling and things like that. But, metrics is absolutely on 
the forefront of our efforts, here.
    Senator Rubio. Well, I would just add that, obviously, the 
$1 billion will not be enough to finish the plan. There is--I 
would imagine there are out-year planned--assuming that there 
is success with the plan, there would be future years for 
continued implementation.
    Mr. Feeley. Sir, we--right now, I can only speak, as you 
can appreciate, for FY16, but----
    Senator Rubio. Okay.
    Mr. Feeley [continuing]. If we look at our history in 
Colombia and we look at our history in Mexico, I would say 
there is no substitute in this hemisphere for strong American 
leadership, technical assistance, and the leveraging ability 
that we bring, both in terms of the programming, as well as in 
terms of the political and diplomatic support.
    Senator Rubio. Okay. I want to examine the $6 million for 
changes to the Interests Section into an embassy.
    In May 2014, the State Department's Office of Inspector 
General released a report, following an inspection of that 
facility. The report included, by the way, a classified annex 
that--with key judgments, which I have reviewed, and 
recommendation on how to improve the security and functionality 
of the Interests Section. Can you tell us, here in this 
setting, without, obviously, going into any of the details in 
the classified annex, what--how many of those recommendations 
have been acted upon?
    Mr. Feeley. I cannot tell you specifically. I owe you that 
answer, sir.
    Senator Rubio. Okay. Can you tell us, then, how much of 
this money will go toward addressing those portions? And of--
even--it can be a written update or a response, classified if 
necessary, on what the State Department has done or plans to do 
to the Interests Section, and how many of their 
recommendations, particularly of the ones in the classified 
annex to the report, have been addressed. That is an important 
point that the committee needs to understand, is, how many of 
those things in that report, both the open portions of it and 
especially the classified portions of it, are going to be 
addressed with these $6 million that you are asking for?
    Mr. Feeley. I owe you that as a takeback, sir.
    [The written reply to the above information requested 
follows:]

    Mr. Feeley. The Office of the Inspector General's report on the 
U.S. Interests Section in Havana identified key areas of concern and we 
are working to mitigate those concerns. The classified annex contains 
several key judgments that we are also addressing. We would be happy to 
discuss the budgetary implications of implementing the recommendations 
and progress on following through on the recommendations in a 
classified setting at your convenience.

    Mr. Feeley. As I mentioned, in general terms, what I can 
say here in this setting is that the additional $6.6 million 
that we would be seeking for D&CP--diplomatic and consular 
program funding--is basically for necessary modernization. But 
we owe you a more specific answer.
    Senator Rubio. Physical upgrades.
    Mr. Feeley. Sir.
    Senator Rubio. Okay.
    Mr. Feeley. There are no FTEs, as we call them--full-time 
employments. We do not anticipate expanding the number of 
diplomats that we are sending down there in the short term. And 
so----
    Senator Rubio. Okay. Well, let--because you talked about--
these are all going to be updates to the facility, and that is 
important, in terms of--not just in light of that report, but, 
in general, the functions that you are talking about providing 
there. But, beyond it, you talked about--there is no IT 
capability or advanced IT capability, there was no cars.
    And that leads me to my following point. Let us talk, 
first, about personnel. You talk about FTEs. This employment of 
Cuban personnel provided by the Cuban Government, there is no 
doubt in your mind that these employees just are not random 
people that applied for a job, that a significant portion of 
them, if not all, have strong links to Cuban intelligence.
    Mr. Feeley. Sir, what I would say to that is that we and 
every other diplomatic mission deal with the circumstances that 
we find on the ground. This is not ideal, this is unique. There 
are--I am not sure if there are other places in the world where 
the host government provides your local employment--your 
locally employed staff.
    Senator Rubio. Or even--that, in and of itself, raises a 
tremendous flag, does it not? We are going to have an expanded 
embassy capability on the--in this country, a nation that we 
know has made the United States a priority of intelligence-
gathering, a country that we know expenses--despite their poor 
budgetary condition, spends a significant amount of money on 
intelligence activity. And they provide us employees, and I 
guarantee you that not a single one of them is just a plumber 
or a janitor. Every single one reports back to the government. 
And I just think that is a major red flag, in terms of 
expanding an embassy capability, where, in fact, we are--
probably require us to expand the number of Cuban employees 
working--employed by the government. People--I do not know if 
the American people realize this, how many--what a large number 
of, basically, Cuban Government employees work inside of our 
consular facility and will be working inside of our Embassy in 
Havana. That is a huge problem.
    Let me ask you something else, because, as part of 
upgrading this--do we have commitments from the Cubans that we 
will be able to bring in new, modern equipment and supplies?
    Mr. Feeley. Senator Rubio, that is one of the issues that 
we are discussing with them. And I am--my boss is the lead 
negotiator. And, quite frankly, I am not able to provide you, 
in this setting, with a status of where we are with regard to 
access by our lead officials or the importation. As you can 
appreciate, these are conversations that are at the core of our 
diplomatic conversations, and nobody is prejudging the outcome.
    Senator Rubio. Well, let me ask you this. Will the 
embassy--or the Interests Section now, embassy later--be able 
to receive regular secure shipments, unmolested by the regime?
    Mr. Feeley. Once again, sir, one of the issues we are 
discussing with them, and I am not in a position today to be 
able to tell you yes or no, categorically.
    Senator Rubio. Well, again, that is a huge area of concern.
    Mr. Feeley. Huge priority.
    Senator Rubio. We are being asked to invest money in an 
embassy in Havana, but we are going to have to hire Cuban 
agents to work in the embassy, we are--and there is no 
guarantee, as of yet, that we are going to be allowed to bring 
in any equipment we want to upgrade the embassy. Because we are 
being told this would be an embassy just like any other embassy 
in the world, except it will have Cuban agents working inside 
of it, we will not--and we have no commitments yet that we will 
be allowed to bring our own equipment, and we have no 
commitments yet that we would be allowed to bring secured 
containers of equipment into the embassy. Other than that, it 
is just like every other embassy, I suppose.
    Mr. Feeley. Sir, I think that there is--the embassies----
    Senator Rubio. It will have a door and a window, but it 
will not have our own computer equipment, our own employees, or 
a secure----
    Mr. Feeley. I understand.
    Senator Rubio [continuing]. Method of delivering material. 
I mean, this is a big issue of concern, and one we are going to 
be debating as we get into this whole funding issue. Because, 
irrespective of how you may feel about an opening towards Cuba, 
if we are going to have an embassy, it should be a real 
embassy, not an embassy that is mined with Cuban intelligence 
officials, unable to upgrade its equipment, and unable to bring 
in, in a secure way, both documents and material for the use of 
the embassy. And I understand it is not your decision to make, 
but I am----
    Mr. Feeley. Sure.
    Senator Rubio [continuing]. Just pointing to the fact that 
that is going to be a major problem----
    Mr. Feeley. Well, and it is a major priority for us. If you 
take a look--we are attempting to reestablish diplomatic 
relations--we are not there yet, as you well know--under the 
Vienna Convention on Diplomatic and Consular Relations. The 
overriding principle of that is that there is reciprocity. In 
many embassies around the world, we do not have 100 percent 
perfect reciprocity, and we have to deal with the circumstances 
that we have. The fact that we have PALCO employees in the 
Interests Section, currently, is one that is an inherited state 
of affairs. But, I absolutely do take very seriously--and I 
know my boss does, and you have spoken with Roberta Jacobson 
and with the Secretary on this--we do take very seriously the 
issues you have raised about shipments, about movement, and 
about our ability to conduct relations--diplomatic relations in 
a country where we have not had them before----
    Senator Rubio. Well, again, I am----
    Mr. Feeley [continuing]. Where we have not had them for----
    Senator Rubio. No, I understand. But, I guess my point is, 
as this was represented to the committee, it should not be 
represented as an embassy just like any other we have around 
the world. I think it is important that if, in fact, this is an 
embassy that is going to have Cuban intelligence agents working 
in it, unable to upgrade equipment unless the Cubans allow it, 
unable to bring in cars unless they allow it, unable to upgrade 
our technological capabilities, and unable to securely deliver 
documents and other type equipment into the facility, it is not 
just like every other embassy. It is--and that is an important 
thing to point out.
    Beyond it, on the personnel issue, is there plans for the 
embassy to be able to have the capacity to host members of 
Cuba's pro-democratic opposition?
    Mr. Feeley. Sir, as you are well aware, we currently offer 
free Internet to independent civil society members. We get 
upward of about 300 people a week who come in. We absolutely 
have regular contact with all of those folks across the wide 
spectrum of independent civil society people in Cuba. They are 
not a monolithic group, as you know well. And we will 
absolutely--one of the issues that we are discussing is to 
allow for our people to be able to go out and meet with those 
folks without fear of reprisal.
    Senator Rubio. Well, so you will continue the programs of 
allowing pro-democracy activists and other to come into the 
facility, use the Internet, assuming we can get the equipment 
in there, and all sorts--so, that is the good news.
    But, let me ask you this. And you talked about being able 
to go out and reach out to people. Is there--is it our 
intention to create the equivalent of a response team at the 
embassy that will be able to visit dissidents when they are 
jailed, when they are beaten, when they are harassed? Has there 
been conversations about creating a group of individuals 
working for the U.S. Government that will be able to go out and 
interact with these dissidents when they are arrested, when 
they are beaten, when they are jailed--out in the country, not 
simply in our facility?
    Mr. Feeley. Once again, Senator, as I have not been party 
to the negotiations, I, unfortunately, am not able to give you 
a specific answer to that specific question.
    Senator Rubio. Okay.
    Mr. Feeley. But, it is a priority that future diplomats of 
the United States in an embassy are able to reach out and speak 
freely with independent members of civil society.
    Senator Rubio. Well, you also talked about, in the past, 
that facility's been used for issues of fugitives, the 
Interests Section that, in the past, has sent teams there to 
seek out fugitives. You talked about the importance of an--a 
U.S. embassy having law enforcement liaisons working from the 
facility, correct?
    Mr. Feeley. That is correct, sir.
    Senator Rubio. Okay. And----
    Mr. Feeley. And, in point of fact, the Cubans have agreed 
to a law enforcement working group with us.
    Senator Rubio. Okay. And does that mean that they have also 
agreed to open the case of Joanne Chesimard to be returned to 
the United States? Has that been discussed at all?
    Mr. Feeley. Sir, I am from New York, and I am the--I am 
from a family of cops and firemen. And I remember when Warner 
Trost was killed. And I know that his family has cried out for 
justice. And I know that there are many other fugitives from 
American justice and international justice there. It is the 
administration's policy that, through a engagement that is 
diplomatic, that allows our law enforcement people to speak to 
one another, we will pursue, at every level that we can, the 
return of fugitives. I cannot guarantee any outcome, sir.
    Senator Rubio. No, I understand. I----
    Mr. Feeley. But, I can tell you it is a priority.
    Senator Rubio. Okay.
    And again, I just want to go back to this point, because it 
is going to be part of our conversations. This is a budget 
oversight hearing, not a----
    Mr. Feeley. Sure.
    Senator Rubio [continuing]. Policy one, per se, although 
it--budget and policy overlap. And we are going to be asked to 
fund a new embassy in Havana. But, I think it is important for 
members to understand, before they approve that funding--and I 
think it is important for the State Department to understand, 
before they come here and ask for that--we need to understand 
exactly what we are funding. And that is why I asked you these 
questions.
    Are we funding a building that, in essence, continues to be 
limited, but just has the name ''embassy`` on it, or are we 
going to be funding a building where we will have our own 
personnel, our own equipment, our ability to send material in 
securely without interference from the Cuban government--in 
essence, a real embassy--or is it just going to be the current 
Interests Sections filled with Cuban agents, unable to upgrade 
technologically, and just costing more money? And that is an 
important point that we are going to have to have a 
conversation about as we get closer to that.
    I wanted to end with a couple more points. And Senator 
Menendez touched upon this, because this is important. You 
know, on February 28 of this year, a Chinese flag vessel was 
intercepted in Cartagena, Colombia, en route to Cuba, carrying 
15 containers of heavy weaponry hidden as a grain shipment. 
This is the second time in 18 months that the Cuban military 
has been caught smuggling weapons internationally. Has the 
State Department made any statements regarding this matter?
    Mr. Feeley. I am going to have to check for you, Senator.
    [The written reply to the above information requested 
follows:]

    Mr. Feeley. Since the Colombian investigation of the incident is 
still ongoing, the Department of State has not made any public 
statements to date. We believe that it would be premature to speculate 
on the incident, though we take the matter seriously and continue to 
consult closely with our Colombian partners. We appreciate the 
Colombian Government's efforts to ensure safe maritime transportation 
throughout the region, particularly for ships that enter populated 
ports, and transit the Panama Canal.

    Mr. Feeley. We were very well aware of the case. I am 
trying to recall if we have made any statements about it. As 
you are aware, from the Chong Chon Gang incident in the Panama 
Canal, the provenance and ultimate destination of an awful lot 
of shipping on the high seas is not always completely clear at 
the outset. We have spoken to our Colombian partners on that. 
But, I owe you a better response as to whether or not we have 
made public statements on it. We have certainly consulted with 
our Colombian partners.
    Senator Rubio. Well, I think this is a critical point, 
because weapons between China--weapon sales between China and 
Cuba are not otherwise sanctioned internationally. So, why 
would they hide this weaponry in grain if, in fact--that, 
alone, should raise alarm as to what exactly they are doing.
    Which brings me to perhaps my final point, and that is, 
according to the memorandum of justification for the recission 
of Cuba's designation as a state sponsor of terrorism that was 
shared with Congress last month, the Cubans reject, ``Cuba 
rejects and condemns all terrorist acts, methods, and 
practices, in all its forms and manifestations. It likewise 
condemns any action intended to encourage, support, finance, or 
cover up any terrorist act, method, or practice.''
    Can my office be provided a copy of the communication 
between Cuba and the United States in which Cuba committed to 
these words that I just read?
    Mr. Feeley. Sir, I am not authorized to get that. I will 
certainly take it back--to give you that assurance--I will take 
back the request.
    Senator Rubio. Well, we will make that request, as well, of 
the Secretary of State. Would that be the appropriate 
individual?
    Mr. Feeley. Yes, sir.
    Senator Rubio. It also states that the governments of Spain 
and Colombia have no objection to the recision of Cuba's 
designation as a state sponsor of terrorism. I would also put 
in the request for those documents.
    Mr. Feeley. If those documents exist, sir----
    Senator Rubio. Okay.
    Mr. Feeley [continuing]. We will certainly--
    [The written reply to the above information requested 
follows:]

    Mr. Feeley. The Government of Cuba provided us with written 
assurances that it will not support acts of international terrorism in 
the future, consistent with the requirements of the relevant statutes. 
While the written diplomatic message is private, we have shared the 
content of the assurances with Congress. In the assurances, Cuba 
reiterated its commitment to cooperate in combating terrorism, rejected 
and condemned all terrorist acts, methods, and practices in all their 
forms and manifestations, and condemned any action intended to 
encourage, support, finance, or cover up any terrorist acts. The 
Government of Cuba further committed to never supporting any act of 
international terrorism, and never allowing its territory to be used to 
organize, finance, or execute terrorist acts against any other country, 
including the United States.
    The Government of Cuba also addressed its support for the 
Revolutionary Armed Forces of Colombia (FARC) and the National 
Liberation Army (ELN) during the peace processes and provided 
assurances that it would never permit FARC and ELN members present in 
Cuba to use Cuban territory to engage in activities against Colombia or 
any other country. The Government of Cuba provided assurances that it 
would never permit Basque Fatherland and Liberty (ETA) members living 
in Cuba to use Cuban territory for that organization's activities 
against Spain or any other country.
    Cuba has also made a number of public statements condemning 
terrorism, including President Castro's December 2014 speech rejecting 
terrorism and his January 2015 statement of outrage against the Charlie 
Hebdo terrorist attack in Paris.
    The Government of Colombia communicated to the United States it has 
no evidence that Cuba has provided any political or material support in 
recent years to the FARC or ELN that has facilitated, supported, or 
promoted the planning or execution of terrorist activity in Colombia. 
The Colombian Government believes the Government of Cuba plays a 
constructive role in the peace negotiations and has no objection to the 
rescission of Cuba's state sponsor of terrorism (SST) designation.
    For those two ETA members for whom Spain has requested extradition, 
Cuba and Spain have agreed to a bilateral process to resolve the 
matter, which is now underway. The Government of Spain told the 
Department that it accepts this process as a sign of Cuba's willingness 
to cooperate on this issue, and that it has no objection to the 
rescission of Cuba's SST designation.

    Senator Rubio. And I guess my final question is one related 
to the democracy programs on the island. And, you know, we have 
heard some criticism here--Senator Flake--but, others have, as 
well--that these programs as some sort of a covert program. I 
think it is important to point out that--and I think Senator 
Menendez touched upon this--but, these programs--these were not 
weapons program, correct?
    Mr. Feeley. No.
    Senator Rubio. These were not--what--programs to hand out 
explosives on the island. These were programs to basically help 
individual Cubans become empowered by having access to social 
media, having--as reported in the media, that is what they 
were--to have access to social media, access to the Internet. 
Does not the fact that that, in and of itself, is considered 
subversive, tell us everything we need to know about that 
regime?
    Mr. Feeley. Our human rights funding hedge has been 
supported from this committee for many years, does, in fact, 
seek to empower the Cuban people. Our strategy, our strategic 
end state in Cuba, has remained the same from December 16 to 
December 18. It is to promote a peaceful democratic transition 
on the island of Cuba, led by Cubans, so that they will become 
a democratic, prosperous, and secure country and join the rest 
of the countries of the hemisphere. My colleagues in DRL, my 
colleagues in USAID have engaged in those programs, with the 
goal of doing exactly that. And there have been many people who 
have benefited from that. And there have been many lessons 
learned along the way. As my colleague from DRL said, providing 
democracy assistance in restrictive environments is one of the 
most difficult tasks we do as diplomats.
    Senator Rubio. So, those programs remain a priority.
    Mr. Feeley. Those programs remain a priority, sir.
    Senator Rubio. And, under no circumstances, as far as you 
know, will those programs ever be weakened or watered down or 
eliminated in an effort to gain further concessions or the 
favor of the Cuban Government.
    Mr. Feeley. Senator Rubio, I can only speak to the FY16 
request. The FY16 request requests the same amount of funding 
as in the past, $20 million.
    Senator Rubio. Thank you.
    Senator Kaine.
    Senator Kaine. Just briefly. Thank you, Mr. Chair.
    Secretary Bennett, we are--I am going to follow up on a 
line of questioning from Senator Menendez. An issue that is of 
great moment right now is the discussion over trade promotion 
authority and, ultimately, a--the idea that a transpacific 
partnership deal would follow. To what extent has your Bureau 
been engaged in discussions with the U.S. Trade Representative 
about labor protections as part of either a trade promotion 
authority or a transpacific partnership deal?
    Ms. Bennett. Thank you, Senator Kaine.
    Through the TPP negotiations--I mean, we really are seeking 
strong and enforceable commitments on fundamental labor rights. 
Our International Labor Affairs Office within the Bureau is 
vectored into that. I cannot give you specifics, without taking 
it back and continuing this, on precisely what stages of 
negotiations and whatnot they have injected, you know, their 
views. But, we have been involved in--you know, what we can do 
to, you know, advance elimination of forced and compulsory 
labor, child labor, commercial sex, of course--I mean, a whole 
variety----
    Senator Kaine. Yes.
    Ms. Bennett [continuing]. Of angles in that regard.
    Senator Kaine. I think I am going to submit a question for 
the record on this, because I would like to get specifics about 
the Bureau's engagement with USTR on this point.
    I am generally pro-trade, but I do think the labor 
protection elements are very important, given the--you know, 
the nations we are dealing with. We do not want to disadvantage 
American workers. And the degree to which your Bureau has 
interacted with USTR would be something I am interested in. So, 
I will submit that one for the record.
    Ms. Bennett. Sure.
    Senator Kaine. Let me just--Secretary Feeley, just follow 
up with you. And I would second comments made by the Chairman 
about the Central American Engagement Plan, the need for 
metrics. You talked about the--sort of, the three pillars of 
investment: prosperity investments, governance investments, and 
security investments. And they are very critical. I will just 
kind of put on the record: A lot of this violence in the 
nations that are corrupting their institutions, affecting both 
the security and governance pillars, and the prosperity, too, 
is driven by the drug trade. This is a committee that has, not 
only the Western Hemisphere as its jurisdiction, but 
transnational criminal activity. The drug trade is not coming 
to Honduras because Hondurans consume a lot of drugs. The drug 
trade is coming to Hondurans because--Honduras--because 
Americans consume a lot of drugs. It is our consumption of 
drugs, whether it is heroin now raised cheaply in Mexico or 
whether it is cocaine, as you indicate, raised in Peru--it is 
our consumption of drugs that has turned a nation that is a 
real ally of ours into a transit point, and the amount of cash 
that we are willing to spend for drugs basically just corrupts 
the institutions of a nation that has a 65-percent poverty 
rate. They have a responsibility to improve their own 
institutions, but they have a real challenge of improving them 
to the degree that we might want to see as long as U.S. dollars 
by--driven by a U.S. demand for drugs is corrupting their 
institutions so badly.
    And so, you know, as I see--in Virginia, whether it is, you 
know, opioid overdoses in rural Virginia or methamphetamine 
problems in, you know, other parts of the State or--and we see 
it all over the country--I mean, all over the country, we are 
seeing this drug problem--unless we get a handle on the demand 
side here and do things really to fundamentally change the 
equation of the demand side here, you know, we can extradite 
more and more people, we can arrest more and more people, we 
can, you know, pay for trainings of police or security 
officers, but we will not see the outcomes that we want in 
Central America unless we own our own responsibilities.
    When kids from violent neighborhoods were arriving at our 
border and then surrendering to the first American they saw in 
uniform, and, you know, there was some attitude of kind of, you 
know, blaming the countries, but, I mean, to some degree, they 
are arriving at our doorstep because we are the source of some 
of the problem. So, those nations have got to own 
responsibility for their institutional improvements. We have 
got to own our responsibility. And it is U.S. cash that is 
corrupting these countries, these poor countries, because of 
the demand for drugs. And we have got to get a handle on that. 
And there is no silver-bullet answer to it, but we have got to 
own that as a responsibility.
    Mr. Feeley. Senator, I'll--just very quickly--I could not 
agree more. I think that it is not in the State Department's 
bailiwick, which tends to deal more with the law enforcement 
and supply side, but this administration, the Obama 
administration, has trebled the amount of money that we spend 
on--out of--and my good friend Mike Botticelli, the Director at 
ONDCP, has trebled that.
    This was, quite frankly, in diplomatic terms, sort of a 
watershed moment, when President Obama and former Secretary 
Clinton told the countries of the region, ``We are co-
responsible for this.'' And we agree, we do have to own it. It 
is not in our bailiwick or operational purview, but we could 
not agree more with you. And it is one of the reasons why, 
within that cooperation that we do with these countries, we 
include demand reduction, because what we, sadly, see many 
times is the--sort of the curse of geography. As the drugs move 
up through the isthmus, many times the drug traffickers, who 
are, you know, pretty rapacious individuals, will pay off, in 
product, and try to use supply to create their own demand.
    So, I thank you very much for your support and recognition 
that, in the United States, we have our co-responsibility, as 
well.
    Senator Kaine. Thank you.
    Thank you, Mr. Chair.
    Senator Rubio. Thank you.
    Thank you all for being here with us today. It was a 2-hour 
hearing, and I appreciate your patience, your service to our 
country.
    Ms. Bennett, it was not bad at all, was it? [Laughter.]
    Senator Rubio. No?
    Ms. Bennett. It was delighted, thank you. [Laughter.]
    Senator Rubio. Sure.
    The record is going to remain open until the close of 
business on Thursday, May 7.
    And, with that, the hearing is adjourned.
    [Whereupon, at 5:30 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


               Responses of John D. Feeley to Questions 
                    Submitted by Senator Bob Corker

    Question. The United States is encouraging trade facilitation and 
capacity-building around the world by working with regional 
organizations, such as the East African Community (EAC) in Africa, APEC 
in Asia. These agreements promote harmonization, economic integration, 
coproduction and other cross-border initiatives. The United States has 
encouraged similar initiatives in the past through trade and 
development policy such as CAFTA, ATPA.

  <diamond> What initiatives has this administration undertaken to 
        continue to encourage economic integration and trade 
        developments in the Western Hemisphere region as a whole, and 
        in subregions such as Central America, the Caribbean, and the 
        Andean region?

    Answer. The administration has embraced economic integration and 
trade promotion initiatives in the region established by prior 
administrations (e.g. NAFTA, CAFTA, four bilateral free trade 
agreements) and continues to implement their provisions to ensure a 
level playing field. We are likewise pursuing a broader, ground 
breaking initiative--the Trans-Pacific Partnership--that in the Western 
Hemisphere includes Canada, Chile, Mexico, and Peru. It represents a 
significant opportunity to integrate the Americas in the rapidly 
expanding Asia-Pacific economy and create new export markets for goods 
and services produced in the Americas.
    We are also implementing trade capacity-building programs through 
initiatives such as Pathways to Prosperity in the Americas, the Small 
Business Network of the Americas (SBNA), and Women's Entrepreneurship 
in the Americas (WEAmericas). Under this initiative, the United States 
has supported customs and border workshops which have leveraged public-
private partnerships to modernize procedures in Central America, the 
Dominican Republic, Peru, and Uruguay.
    The SBNA builds connections between U.S. and regional institutions 
providing counseling, training, financing, and other support services 
to small and medium businesses. Through the WEAmericas initiative we 
have worked with the regional partners to certify businesses as women-
owned and integrate women entrepreneurs into global supply chains by 
connecting them with direct trade opportunities.
    In Central America, USAID is improving trade facilitation and 
market access for agricultural value chains by reducing trade costs 
across borders, promoting public-private dialogue on trade 
facilitation, and harmonizing trade and investment laws, regulations, 
and procedures.
    Our energy initiatives in Central America and the Caribbean also 
aim to foster conditions for economic integration. Connecting the 
Americas 2022 promotes access to electricity through enhanced 
interconnection, power sector investment, and renewable energy 
development, which will increase competitiveness for trade and 
investment. Vice President Biden announced the Caribbean Energy 
Security Initiative in June 2014 to work with the Caribbean to 
diversify and integrate their energy sectors.
    Leadership on economic integration extends past our borders. Chile, 
Colombia, Mexico, and Peru established the Pacific Alliance in 2012. 
The United States became an observer in July 2013 and supports the 
efforts by the Pacific Alliance countries toward integration, lowering 
barriers to trade and strengthening economic ties. The United States 
has proposed cooperation on regulatory matters, trade and travel 
facilitation, research institution partnership, and entrepreneurship.

    Question. In both the U.S.-Colombia and U.S.-Peru free trade 
agreements, there is a reference to regional integration, building on 
the supply chains that were created as a result of previous U.S.-Andean 
trade agreements (i.e., ATPDEA). Namely, the agreements includes a 
section in the textile chapter, specifically on regional cumulation 
which states: ``In the light of their desire to promote regional 
integration, the Parties shall enter into discussions, within six 
months of the date of entry into force of this Agreement, or at a time 
to be determined by the Parties, with a view to deciding, subject to 
their applicable domestic legal requirements (such as a requirement to 
consult with the legislature and domestic industry), whether materials 
that are goods of countries in the region may be counted for purposes 
of satisfying the origin requirement under this Chapter as a step 
toward achieving regional integration.''
    The U.S.-Peru Free Trade Agreements entered into force on February 
1, 2009. The U.S.-Colombia Free Trade Agreement entered into force on 
May 15, 2012.

  <diamond> Has the United States entered into discussions about 
        regional cumulation with Peru? With Colombia? If not, has a 
        later date been determined by the parties? Have there been 
        discussions about setting a date? Can you explain why these 
        discussions have not taken place? Would you say that the delay 
        in the discussions is due to a policy decision or to simple 
        negligence?

    Answer. Discussions of cumulation with Peru and Colombia have taken 
place on several occasions, including at the most recent U.S.-Peru Free 
Trade Commission meeting and during bilateral meetings in Colombia in 
late 2014. As we explained in those meetings, any agreement to provide 
such cumulation between Peru, Colombia, and the United States would 
require extensive consultation with stakeholders, the renegotiation of 
bilateral Trade Promotion Agreements (TPAs) with each country, and the 
passage of implementing legislation. We also discussed the ``short 
supply provisions'' contained in the agreements with Peru and Colombia. 
These provide a well-defined administrative process for expanding the 
use of nonoriginated inputs which are not available from producers 
within either TPA. U.S. trade officials stand ready to work with each 
government to facilitate use of these provisions.
                                 ______
                                 

               Responses of John D. Feeley to Questions 
                     Submitted by Senator Tim Kaine

    Question. Respect for international labor rights must be a 
fundamental focus of any trade deal to ensure American workers are not 
disadvantaged in the global economy.

  <diamond> To what extent has the Bureau of Democracy, Human Rights, 
        and Labor (DRL) worked with the Office of the U.S. Trade 
        Representative (USTR) to promote labor protections as part of 
        Trade Promotion Authority or a Trans-Pacific Partnership deal?
  <diamond> Please provide specific examples of DRL's engagement with 
        USTR.

    Answer. DRL has consulted closely with USTR at the highest levels 
throughout the TPP negotiations. DRL's objective is to ensure that our 
TPP partners reform their laws and practices so that they are 
consistent with the International Labor Organization's fundamental 
labor rights, including adopting laws on minimum wages, hours of work, 
and occupational safety and health. In the course of our consultations 
during trade negotiations, we have specifically identified where 
partner countries have fallen short of international standards and 
steps that need to be taken to bring laws and practices in line with 
international standards. When TPP negotiations are concluded, we expect 
our negotiating partners will undertake specific, concrete steps to 
bring their labor laws and practices into conformity with international 
standards. The Department is now working with USTR and other USG 
agencies to ensure that there will be appropriate labor capacity-
building plans in place for TPP partners who do not yet meet their 
obligations as members of the International Labor Organization, 
including obligations outlined in the 1998 ``ILO Declaration on 
Fundamental Principles and Rights at Work.''

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
